<html>
<title> - THE ONGOING STRUGGLE AGAINST BOKO HARAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





  
          THE ONGOING STRUGGLE AGAINST BOKO HARAM

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2014

                               __________

                           Serial No. 113-220

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
  
                         U.S. GOVERNMENT PRINTING OFFICE 

88-290 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--5/20/14 
    noon deg.
SEAN DUFFY, Wisconsin<greek-l>--5/
    29/14 noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

J. Peter Pham, Ph.D., director, Africa Center, Atlantic Council..     8
Mr. Emmanuel Ogebe, manager, Justice for Jos Project, Jubilee 
  Campaign USA...................................................    27
Mr. Anslem John-Miller, representative to the U.S., Movement for 
  the Survival of the Ogoni People...............................    56
The Honorable Robin Renee Sanders, chief executive officer, 
  FEEEDS Advocacy Initiative (former United States Ambassador to 
  Nigeria).......................................................    67

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

J. Peter Pham, Ph.D.: Prepared statement.........................    13
Mr. Emmanuel Ogebe: Prepared statement...........................    31
Mr. Anslem John-Miller: Prepared statement.......................    61
The Honorable Robin Renee Sanders: Prepared statement............    72

                                APPENDIX

Hearing notice...................................................   100
Hearing minutes..................................................   101
Mr. Emmanuel Ogebe: Information on Boko Haram attacks............   102
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Remarks by Dr. Zuhdi Jasser of the U.S. 
  Commission on International Religious Freedom..................   107

 
                THE ONGOING STRUGGLE AGAINST BOKO HARAM

                              ----------                              


                        WEDNESDAY, JUNE 11, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:34 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Since November 2013, the U.S. Government has 
declared Boko Haram and its affiliate, Ansaru, to be Foreign 
Terrorist Organizations. This supposedly provides further tools 
with which to fight such organizations and their sponsors. 
However, an administration that resisted the FTO designation 
for so long continues to downplay its significance. This 
hearing is intended to provide information on that reluctance 
on obstacles to our effective security and our military 
assistance to the Nigerian Government in its antiterror fight.
    Boko Haram is a Nigerian terrorist group whose name in 
Arabic is ``People Committed to the Propagation of the 
Prophet's Teaching and Jihad.'' The name Boko Haram is from 
Hausa meaning that conventional education, boko, is forbidden.
    According to various reports, Boko Haram began in 2003 when 
about 200 university students and unemployed youth created a 
camp in Yobe State near the Niger border to withdraw from what 
they considered to be corrupt, sinful and unjust Nigerian 
Government, and their community was supposedly founded on 
Islamic law. The group was then known as the Nigerian Taliban.
    Violent clashes with Nigerian security forces nearly 
destroyed the group several times, but it charismatic leader, 
Mohammed Yusuf, kept the group alive until his death while in 
police custody in July 2009. Since Yusuf's death there have 
been various spokesmen. Abubakar Shekau is now considered to be 
the leader. Furthermore, a breakaway group known as Ansaru has 
appeared on the scene, but still coordinates with the original 
Boko Haram.
    Because of its repeated attacks against Christian targets 
during holy days such as Christmas and Easter, Boko Haram is 
seen by some as principally an anti-Christian organization. 
This past year alone, Boko Haram terrorists are believed to 
have killed more than 1,000 Christians in Nigeria. In fact, it 
is estimated that more than 60 percent of Christians killed 
worldwide because of religious intolerance die in Nigeria.
    However, it would not be a completely accurate 
interpretation of the facts to assume that what is happening in 
Nigeria is just a Muslim-Christian conflict. The kidnapping of 
nearly 300 Nigerian schoolgirls in the Borno State, town of 
Chibok, on April 14, has caught the attention finally of the 
international community, albeit 2 weeks after the incident. 
However, the kidnapping of 8 additional girls after that has 
been an afterthought; and the kidnapping of another 20 women 
last week has yet to receive much notice.
    Prior to the April kidnappings, Boko Haram had generally 
killed boys, but let girls go, warning them to go home and give 
up their dreams of education. There have been previous 
incidents, however, in which girls have been kidnapped, though 
not in large numbers as in Chibok.
    Now Boko Haram leaders realize that kidnapping girls gets 
worldwide publicity; and whether these girls are recovered or 
not, and God willing they will be, they know that they can do 
this again and get publicity for their nefarious group. The 
very news media used to galvanize pressure on Nigeria to obtain 
freedom of the kidnapped girls is being used by Boko Haram to 
brag of its ability to disrupt social society and taunt 
Nigerians and their government about their ability to take 
women and girls away.
    Several videos--and I have watched them; I am sure many of 
you have as well--purportedly of the kidnapped Chibok girls 
have been released, echoing previously used al-Qaeda tactics in 
this regard.
    In the past 2 years, our subcommittee has sent a staff 
delegation to investigate the Boko Haram threat, and this past 
September Greg Simpkins, our subcommittee staff director, and I 
visited Abuja and Jos to further look into the matter. And, 
frankly, we went to firebombed churches. We met with Archbishop 
Kaigama as well as Muslim leaders in Jos and had very, very 
eye-opening meetings with the survivors, some of whom had lost 
limbs, certainly they had lost loved ones to these 
firebombings.
    Just on Monday I returned from another 4 days in Abuja 
where I took time and met with a number of victims who had 
suffered so much, as well as government leaders. Last week in 
Abuja, one of the Chibok girls who escaped early on in the 
ordeal met with our delegation. This brave young woman has 
suffered so much and was clearly traumatized and in emotional 
pain. You could hear it in her voice, you could see it in her 
eyes as she sat motionless recounting her story, yet she spoke 
not of herself, but of her concern for her friends and her 
classmates who remain in captivity.
    I met with a Muslim father of two girls abducted from the 
Chibok school. Fighting back tears, he said the agony was 
unbearable. Again, this is a Muslim father. The story of his 
daughters underscored the fact that Boko Haram brutalizes 
Muslims as well.
    I also met with another Boko Haram victim, including a 
Christian mother of two, whose two daughters were abducted back 
in February 2012. She told us her husband was shot on the spot. 
Three months later they took the two daughters and abducted 
them. And then 3 months later Boko Haram gunmen returned and 
asked if her son had converted to Islam. When she said no, they 
shot him on the spot and killed her son. Again through her 
tears, which were almost uncontrollable, she recounted the 
horror of losing a husband, a son, and having two of her 
daughters kidnapped.
    We have wasted more than a year not using all of our tools 
because of the specious argument that doing so would provide 
publicity to terrorists. And now the administration is 
downplaying what the FTO designation can, indeed, accomplish. 
There must be a robust use of the benefits of this designation 
if we are to be successful in the battle against terrorism in 
Nigeria.
    The three criteria for an organization to be declared an 
FTO are that it must be a foreign organization; it must be 
engaged in terrorist activity; and it must threaten the 
security of the United States nationals, U.S. national 
security, or the economic interests of the United States. 
Clearly Boko Haram and Ansaru meet the test, and, again, that 
is why I introduced H.R. 3209 last year to urge the 
administration to declare Boko Haram a foreign terrorist 
organization.
    I want to point out that the meetings with our Embassy 
people were very fruitful, and I want to applaud them for their 
diligence and for their commitment both on the intelligence 
side, on the training side of just a small but not 
insignificant group of Nigerians, particularly in 
counterinsurgency, as well as humanitarian efforts that they 
have embarked upon to try to help those who are suffering so 
much.
    Boko Haram and Ansaru do wage attacks on the Nigerian 
Government as we all know, and they also have domestic targets 
as well. Nevertheless, their actions prove their participation 
in the global jihad movement that wages violent war worldwide 
to establish their skewed version of Islam as a prevailing 
religion globally.
    Various actions such as to the bombing of the U.N. office 
way back in 2011 in Abuja and numerous statements from Boko 
Haram spokesmen indicate that there is this international 
intent, and sadly they are growing. They are not diminishing; 
they are growing. This international focus has been confirmed 
by American and Nigerian intelligence. In fact, there was at 
least one American present during the U.N. office bombing in 
2011 which we would have hoped the administration would have 
acknowledged. I and members of our full committee asked that 
question as recently as a hearing that was held, chaired by 
Chairman Royce.
    When then-Assistant Secretary Johnnie Carson told us in a 
July 2012 hearing on Nigeria that Boko Haram's attacks were 
caused mostly by an animus against the Nigerian Government, I 
believe he was wrong in the apportionment of cause and effect. 
There is a tremendous animus toward the Nigerian Government and 
an effort to embarrass President Jonathan; however, Boko Haram 
is determined to convert or kill Christians and Muslims that 
they believe oppose them.
    Poverty did not create Boko Haram. That would be an insult, 
I would suggest respectfully, to the poor. Religious 
fanaticism, however, is what it is underlying and it is 
foundational.
    Underdevelopment in northern Nigeria provides fodder for a 
level of discontent with the Federal Government. It provides at 
least tacit northern support for anyone opposing the 
government. If northern Nigeria were its own country, it would 
be among the poorest, least educated, least healthy countries 
in the entire world.
    Largely due to the terrorist violence in the north, an 
estimated 3.3 million Nigerians are displaced, making Nigeria 
the world's third largest displaced population behind only 
Syria and Colombia. Many of those displaced people are farmers, 
which will certainly disrupt the next harvest and further 
impoverish Nigeria's suffering people. Yet the blame for 
perennial lack in development in northern Nigeria should not be 
heaped on the Federal Government alone. We have been told that 
northern states have money for development, and one national 
legislator from the north acknowledged that each member of 
Nigeria's Parliament has at least $1 million--not Nigerian 
naira, but American dollars equivalent--at his or her disposal 
for his constituent services. National and state governments in 
Nigeria have to be pushed to do more on development with money 
they already have.
    Finally, it is imperative that we provide the training and 
support for Nigerians to develop their own capacity to help 
Nigeria end the Boko Haram threat. The Leahy law, which forbids 
U.S. support to military and security forces involved in human 
rights violations, is seen as an obstacle, to some extent, to 
achieving that goal, and I say that as someone who has been 
very supportive of the Leahy amendments both for DoD and the 
State Department over the many years.
    In this hearing room 15 years ago, when Indonesia was 
matriculating from Suharto to Habibie, and we were training the 
Kopassus group, an elite group of Indonesians, we had no idea 
which ones we trained and whether or not they were out there 
doing urban guerilla warfare and shooting people in Jakarta 
when violence erupted there. So there is a need for the Leahy 
law, but it has to be very carefully looked at so that fine 
infantry and soldiers who have the capability to be leaders are 
not screened out, and therefore diminishing the ability of the 
Nigerians to wage an effective campaign against Boko Haram.
    I would like to now yield to my friend and colleague Ms. 
Bass for opening comments.
    Ms. Bass. Thank you very much, Chairman Smith. As always, I 
thank you for your leadership of this subcommittee and for 
convening today's hearing.
    I would also like to thank our distinguished witnesses, and 
I look forward to hearing your perspectives on the ongoing 
crisis in northern Nigeria, including an assessment of Boko 
Haram's recent activities; the U.S., Africa Union, and 
international efforts to locate the kidnapped girls and 
mitigate the threat of Boko Haram; and what is ultimately at 
stake if efforts to quell the group's heinous crimes are not 
implemented with sufficient resources and all deliberate speed.
    Since the April 15 kidnapping of nearly 300 girls by armed 
militants, international attention from both advocates and the 
international community has been focused on locating the girls 
as well as addressing the overarching security challenges 
caused by Boko Haram.
    Following President Obama's initial condemnation of the 
attacks and kidnappings, the U.S. Government committed to 
provide technical and logistical support in the effort to 
locate the missing girls and support the Government of Nigeria 
in addressing the threat posed by Boko Haram. These efforts 
began with a joint assessment mission to Nigeria led by the 
AFRICOM Commander David Rodriguez and the State Department's 
Under Secretary of State for Civilian Security, Democracy, and 
Human Rights. Following the assessment, a multidisciplinary 
U.S. team was deployed to Nigeria, including military and law 
enforcement personnel capable of sharing with the Nigerians 
expertise in intelligence, investigations, hostage negotiating, 
and victim assistance.
    U.S. military assistance to Nigeria, I understand, is 
currently focused on military professionalization, peacekeeping 
support and training, and border and maritime security. This 
includes providing commercial satellite data and intelligence, 
surveillance, and reconnaissance support to Nigeria's military, 
and the two governments reached an intelligence-sharing 
agreement in mid-May. To further support this effort, President 
Obama has deployed approximately 80 U.S. military personnel to 
neighboring Chad to contribute to the rescue efforts.
    I know that a lot has been said about the State 
Department's initial reticence to designate Boko Haram as a 
Foreign Terrorist Organization, and as I understand there were 
several practical reasons to avoid such a designation in the 
past. The practical effects of the designation were few, I 
believe, given limited information suggesting material support 
for the group from individuals in U.S. jurisdiction. It is my 
understanding that they have raised most of their money from 
committing local crimes.
    Many U.S. officials cautioned also, as the chairman stated, 
that the FTO designation might actually serve as a recruitment 
and fundraising tool. Additionally, some global 
counterterrorism experts have made similar arguments about 
potential complications related to the FTO designation, 
suggesting a designation could inadvertently give additional 
visibility and credibility to a group among international 
Jihadists, or could make the operations of U.S.-based relief 
agencies in Boko Haram areas more difficult. Given the 
religious component to the conflicts in northern Nigeria, some 
experts also cautioned against that designation on the grounds 
that it could fuel perceptions that the U.S. was taking sides 
between Muslims and Christians.
    These and other concerns related to the designation were 
shared by State Department officials, according to former 
Assistant Secretary of State for African Affairs Johnnie 
Carson.
    It should be noted that the FTO designation primarily 
triggers the freezing of any assets a group might have in U.S. 
financial institutions, bans FTO members' travel to the U.S., 
and criminalizes transactions with the organization, but does 
not convey authorization for direct U.S. military action 
against a terrorist group.
    Since the designation, however, was made in November 2013, 
it is unclear if it has had any impact on Boko Haram's 
financing as the extent to which they raise funds from abroad 
is also unclear.
    As we prepare to hear from today's witnesses, I hope we can 
learn critical lessons from the vast experience and use them to 
move forward to increase support for the most effective 
measures that bring an end to the scourge of Boko Haram in 
northern Nigeria. I am committed to working toward this end and 
look forward to working with my colleagues in Washington and on 
the continent to find the most effective and sustainable 
solutions.
    Mr. Smith. Thank you very much, Ms. Bass.
    I would now like to yield to Mr. Weber.
    Mr. Weber. Mr. Chairman, thank you. I am ready to get 
going.
    Mr. Smith. Dr. Bera.
    Mr. Bera. Thank you, Mr. Chairman, thank you, Ranking 
Member Bass for calling this timely hearing.
    Obviously, the grave situation of the nearly 300 girls, 
that were kidnapped near Chibok is something that continues to 
distress many of us. You know, according to the United Nations, 
we have seen over 500 schools that have been destroyed in 
northern Nigeria by Boko Haram, leaving over 15,000 students 
without access to education and scores more, thousands more, 
who are now really fearful about obtaining that education. And, 
you know, it is those acts of terrorism that started to drive 
folks from just a normal civilized life.
    I look forward to hearing from the witnesses on what more 
we could do to help better support those within Nigeria, but 
then also, you know, when Ranking Member Bass touched on 
sources of funding, better funding of Boko Haram, you know, if 
	I read some of the reports from Nigerian troops and so forth, 
many of them feel as though, you know, again, if I were to 
trust the reports, that they are underequipped compared to the 
Boko Haram troops and forces; so, you know, if they are going 
into the north and into some of the more difficult terrain to 
fight against one of the more better-equipped armies in 
Nigeria.
    One thing that we could do short of actually sending troops 
in would be to look for those sources of funding, and look for 
those foreign sources of funding, and try to as effectively as 
possible address the sources that are funding the Boko Haram 
troops and their equipment.
    In addition, I think I stand with Chairman Smith and 
Ranking Member Bass and the members of this subcommittee that 
we are committed to doing what we can as the people of the 
United States working with the international community to 
continue to aggressively address and fight the terrorism that 
is coming out of Boko Haram.
    So with that, Mr. Chairman, I yield back.
    Mr. Smith. Mr. Bera, thank you very much.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman and Ranking Member 
Bass, for holding today's hearing on this very important issue. 
And even though we are working, obviously, together with some 
of our international partners to secure the return of hundreds 
of girls kidnapped by Boko Haram to their homes and to their 
families, we continue to learn of additional heinous acts 
perpetuated by this terrorist organization. In fact, earlier 
this week it was reported that Boko Haram brazenly abducted an 
additional 20 girls just miles away from the site of the 
kidnapping in April.
    This continued terrorization and intimidation is something 
that no civilized society can tolerate, and certainly we all 
agree no child in the world should live in fear of being 
kidnapped, forced into marriage, slavery, or killed solely 
because they pursue an education or practice of a different 
religious faith.
    With an estimated 5,000 people killed by Boko Haram-related 
violence, it is incredibly important that the international 
community continue to strongly condemn these actions, and 
remain focused on this terrorist group, and work together to 
hold Boko Haram accountable for these really despicable 
actions.
    I look forward to hearing from the witnesses today about 
our efforts to respond to the horrific violence of Boko Haram 
and to doing all that we can to respond to the crisis in 
northern Nigeria. I thank the witnesses for being here, and I 
yield back. Thank you very much.
    Mr. Smith. I yield to my friend Mr. Stockman.
    Mr. Stockman. Thank you, Mr. Chairman.
    Just quick comments, and then I thank you for coming before 
us today.
    One of my concerns is, which I expressed to the chairman, 
is the interpretation of some Nigerians regarding United States 
efforts. And I would think that we are transparent, but 
apparently there are some that believe we have ulterior motives 
for helping. I can assure you, regarding the chairman, that his 
sole purpose has been throughout the world is his compassion 
for others, and that if the leadership or anyone in Nigeria 
interprets our help or wanting to help as anything other than 
that, then it is incorrect. And I am a little bit alarmed at 
the way it is being portrayed, and I can assure you from our 
standpoint, our motives are there to help and not to have a 
political agenda.
    The other thing I am concerned about, which I would like to 
get answers to, I don't know if it is a proper forum or we have 
to have a closed hearing, but I would like to know what kind of 
weapons. It is my understanding that some of the weapons from 
Libya have made it into the hands of the terrorists, and, if 
so, how many weapons and how much? Do we have any comprehensive 
count of what has ended up in their hands and how they are 
being used?
    If that is the case, everybody knows Libya was an armed 
camp. Ghadafi kept many weapons. For us to sit by and pretend 
that the terrorists don't have weapons or weapons that could be 
harmful to Nigeria, I think, is a mistake. People say the best 
way that you can cure alcoholism is by first admitting you are 
an alcoholic; but if we don't have an understanding admitting 
that we have a problem, then we can never cure the problem. And 
I think we need some honest debate, not criticism--we are not 
here to criticize--but honest debate on what is going on so we 
can help.
    Mr. Chairman, I think our intentions here today are to find 
out how we can help in the proper way and not being offensive, 
not being a big foot, a big print, but doing something that is 
real and not interpreted in a negative way. And with that, 
Chairman, I yield back.
    Mr. Smith. I would like to now introduce our very 
distinguished panel, beginning first with Dr. Peter Pham, who 
is the director of the Africa Center at the Atlantic Council in 
Washington. He is the incumbent vice president of the 
Association for the Study of Middle East and Africa, an 
academic organization that represents more than 1,000 scholars, 
and is editor-in-chief of the organization's Journal of the 
Middle East and Africa.
    Dr. Pham was the winner of the 2008 Nelson Mandela 
International Prize for African Security and Development. He 
has authored half a dozen book chapters concerning Somali 
piracy, terrorism, and stabilizing fragile states, as well as 
more than 80 articles in various journals.
    We will then hear from Mr. Emmanuel Ogebe, who is the 
manager of the Justice for Jos Project at the Jubilee Campaign, 
and an experienced attorney specializing on international 
matters focusing on Nigeria. Exiled to the U.S. after becoming 
a political detainee during the brutal years of Nigeria's 
military dictatorship, Mr. Ogebe has played a key role in 
shaping U.S. policy toward Nigeria and its quest for democracy. 
He has experience in managing, designing, and implementing 
complex international projects and programs in Nigeria.
    Mr. Ogebe is presently practicing as a legal consultant on 
Nigeria admitted to the Washington, DC, bar. He holds the 
distinction of being the first specialist on Nigeria out of 
100,000 lawyers licensed in Washington, DC.
    Then we will here from Mr. Anslem Dornubari John-Miller who 
served as the chairman of the National Caretaker Committee of 
the National Union of Ogoni Students, as well as the Movement 
for the Survival of the Ogoni People, the parent body under 
which the Ogoni nonviolenct struggle for environmental and 
social justice is being carried out. While in a refugee camp in 
Benin, he founded the National Union of Ogoni Students, where 
he educated the public on the situation of the Ogoni and drew 
attention to the plight of the refugees who are predominantly 
students and youth.
    Once resettled in the United States in 1996, he continued 
his work for the Ogoni people, where his efforts resulted in 
the resettlement of over 1,000 families in the United States.
    And then we will hear from Ambassador Robin Renee Sanders, 
who is CEO of FEEEDS Advocacy Initiative and owns FE3DS, both 
of which craft economic development and business strategies for 
African countries. In these organizations, she focuses on food 
security, education, the environment, energy, economic 
development and self-help programs, particularly for small and 
medium enterprises. Prior to this she served as U.S. Ambassador 
to Nigeria and the Republic of Congo, and was the U.S. 
Permanent Representative to ECOWAS, the Economic Community of 
West African States. She has served twice as the Africa 
Director at the National Security Council at the White House.
    This is a very distinguished panel, and we look forward to 
your insights and recommendations.
    Dr. Pham.

  STATEMENT OF J. PETER PHAM, PH.D., DIRECTOR, AFRICA CENTER, 
                        ATLANTIC COUNCIL

    Mr. Pham. Thank you, Mr. Chairman, Ranking Member Bass, and 
distinguished members of the subcommittee. I would like to 
thank you not only for the specific opportunity to testify 
before you today on the subject of the ongoing struggle against 
Boko Haram, but also thank you for the sustained attention 
which the Committee on Foreign Affairs, this subcommittee, and 
other Members of the U.S. House have given to this challenge.
    In it is oversight capacity, the House on this issue has 
been very much ahead of the curve. The very first congressional 
hearing on Boko Haram was in 2011, at which I had the privilege 
of testifying; at that time Boko Haram was considered so 
obscure that all of the participants at that event could have 
been convened in the proverbial broom closet. Sadly, our 
analysis proved prescient, and rather than fading away, Boko 
Haram today poses an even greater menace to Nigeria and its 
people, their neighbors, and, indeed, the international 
community as a whole.
    With your permission, I will present a summary of my 
current assessment of Boko Haram and then ask my prepared 
statement be entered into the record of this hearing.
    Mr. Smith. Without objection, your full statement and that 
of all the witnesses and any extraneous material you would like 
included in the record will be made a part of the record.
    Mr. Pham. Thank you.
    Mr. Chairman, Ranking Member Bass, the emergence of Boko 
Haram cannot be understood without reference to the social, 
religious, economic, and political milieu of northern Nigeria 
which have been marked by persistent corruption and relatively 
few improvements in socioeconomic indicators of well-being 
since the restoration of constitutional order to the country, 
leaving many communities in the north with the perception that 
they are falling further behind their counterparts. This has 
given Boko Haram's message calling for a radical transformation 
of Nigerian society a wide resonance across the region even if 
the tactics the group has adopted are repugnant to the 
overwhelming majority of Nigerians irrespective of their ethnic 
identification or religious affiliation.
    In this context the group proved a useful instrument for 
the ambitions of certain politicians in northeastern Nigeria, 
including Ali Modu Sheriff, who availed himself of the support 
of the group's leaders and their organization in his successful 
2003 bid for the governorship of Borno State, and subsequently 
appointed a prominent Boko Haram member, Alhaji Buji Foi, to 
his cabinet as State Commissioner of Religious Affairs during 
his first term, thus giving the sect access to not only not 
inconsiderable public resources, but also public persona.
    Eventually the group's relations with state and local 
authorities soured, tensions escalated, until, as you 
mentioned, Mr. Chairman, in 2009 security forces moved against 
the group. Founder Mohammed Yusuf was captured and shot, and 
not before more than 700 people were killed, numerous public 
buildings, including government offices, police stations, 
schools and churches, were destroyed.
    With most of its leaders as well several prominent backers 
dead, the group receded from public attention, and a number of 
analysts even argued that it was finished. But far from being 
dead, the group underwent a dramatic transformation with help 
from foreign Jihadist groups, including al-Qaeda in Islamic 
Maghreb and al-Shabaab, emerging in what might be described as 
version 2.0, adopting one of the most deadly instruments in the 
Jihadist arsenal, the suicide bomb, and via attacks in 2011 of 
the Nigerian police force and United Nations headquarters in 
Abuja, demonstrating itself capable of carrying out attacks far 
from its usual areas of operation.
    2012 proved to be another significant milestone in Boko 
Haram's evolution. While foreign links were a critical part of 
its ideological and operational shift from version 1.0 to the 
far more lethal 2.0, the takeover of northern Mali by various 
al-Qaeda-linked Islamist militant groups at the end of March 
2012 provided a whole new set of opportunities leading to what 
I might term version 3.0.
    During the nearly 10 months in which AQIM and its allies 
held sway over northern Mali, Boko Haram was able to set up a 
number of bases in the territory where hundreds of recruits 
received ideological instruction, as well as weapons and other 
training that subsequently raised its tactical sophistication 
and operational tempo of Boko Haram's attacks in Nigeria, 
elevating the group to the level of a full-fledged insurgency.
    Following the French-led intervention in Mali, the 
militants, possibly accompanied by a few foreign nationals, 
returned to northern Nigeria not only with training and some 
combat experience in desert warfare, but also vehicles and 
heavy weapons, including shoulder-fired missiles. Within weeks 
Boko Haram fighters were raiding military barracks for even 
more weapons; staging increasingly bold prison breaks; 
destroying numerous schools, hospitals and other government 
buildings; and engaging the Nigeria military in pitched open 
battles, and in some cases totally overrunning border towns.
    By the middle of 2013, the militants had effectively 
evicted Nigerian Government troops and officials from at least 
10 local government areas along the borders of Niger, Chad, and 
Cameroon, and set themselves up as the de facto authority in 
the region, often replacing Nigerian flags with their own 
banner, taxing and otherwise ordering citizens about, and 
creating a large area roughly the size of the State of Maryland 
within which they operated with even greater impunity.
    The foreign influence is discernible in the proliferation 
of the kidnappings for ransom, abductions being almost a 
signature trait now. The kidnapping victims now have included 
not only the schoolgirls from Chibok, but previously a French 
family of seven, subsequently freed after the payment of a 
ransom of $3 million reportedly and the release by Cameroonians 
of some 16 Boko Haram members; a French priest, two Italian 
priests, and a Canadian nun, all of whom were subsequently 
freed; and, more recently, 10 Chinese citizens abducted from a 
work site in northern Cameroon and still missing.
    Kidnapping for ransom, not only of higher-profile foreign 
nationals, but hundreds of Nigerians whose families have had to 
offer more modest payments, with most being reported in the 
order of $10,000 to $20,000, although more than $\1/4\ million 
has been paid for more prominent abductees, represent only part 
of the funding stream for Boko Haram, which is rather 
diversified. As I previously noted, the group enjoyed a 
partnership with state and local politicians as recently as 6 
or 7 years ago and, thanks to these well-placed supporters, 
appears to have benefited from public resources. There is 
reason to believe that even after the uprising and suppression 
of the group in 2009, some political actors funneled resources 
to it, albeit for a slightly different calculus than earlier 
politicians. Some cells have also been accused of carrying out 
bank robberies and other such, although the extent to which 
these crimes were committed by and for the benefit of Boko 
Haram as opposed to being criminal acts blamed on the group is 
subject of some debate.
    Two key aspects to bear in mind are that Boko Haram has 
developed a very diversified and resilient model for supporting 
itself, and that as it increasingly takes on more and more the 
character of an insurgency, it can essentially live off the 
land with very modest additional resources required, both 
factors rendering efforts to cut off funding particularly 
challenging.
    On the other hand, in a region where more than two-thirds 
of the population lives on less than $1 a day, the funding, no 
matter how modest, can go very far. For example, it is widely 
known that Boko Haram leaders pay Almajiri youth literally 
pennies a day to track and report on troop movements and in 
some cases to move weapons around.
    A comprehensive strategy is therefore required to respond 
to the burgeoning threat posed by Boko Haram, some of the 
elements of which would include, first, invest in better 
information and analysis.
    Secondly, encourage the Nigerian Government to deal 
forthrightly with the threat. Over the years the somewhat 
lackadaisical attitude that some senior Nigerian officials have 
taken toward Boko Haram has been perplexing. It should be noted 
that not only has the Nigerian military been largely 
ineffectual in its efforts to contain the insurgency, some 
military units spearheading the fight against Boko Haram such 
as the Army's 7th Division, are so dysfunctional that just last 
month its soldiers were reported to have opened fire on their 
commanding general. Worse still are the instances of actual 
complicity with the militants, the motivations behind which run 
the gamut from political opportunism and/or cynicism to 
corruption; to social, ethnic, and perhaps even familial ties 
to the militants; and perhaps most concerning of all, 
ideological sympathy for the extremist agenda.
    In addition, address legitimate grievances. At the same 
time, confronting Boko Haram will require that the government 
carefully measure its response. The government, Federal and 
state, must also better address legitimate grievances which 
have rendered meaningful segments of the population amenable to 
the extremist message.
    Finally, promote specialized training for Nigerian security 
forces. Undoubtedly the Nigerian security forces, both military 
and police, could use assistance in the fight against Boko 
Haram; however, the need is less a matter of personnel and 
equipment than training, especially in intelligence and 
investigations. With a defense budget of approximately $6 
billion, Nigeria does not want for material resources; however, 
what does want is lack of maintenance and how to use that 
equipment. One of the reasons the U.S. recently had to deploy 
and unmanned aerial vehicle to Chad to overfly northern Nigeria 
looking for the schoolgirls is because for want of upkeep, none 
of the Aerostar tactical drones purchased from Israel by 
Nigeria several years ago today fly.
    That being said, tailored efforts that meet vetting 
requirements stipulated by U.S. law can and should help 
Nigerian forces strengthen their civil-military affairs 
capabilities, facilitate interactions between military forces 
and civilians, and other useful skills.
    Finally, having just returned a day and a half ago from my 
second trip in a month to the region, we need to help 
strengthen regional cooperation and the capacity of Nigeria's 
neighbors. Boko Haram has used Nigeria's porous borders and the 
limited capacities of neighboring countries to its advantage. 
Greater cooperation and intelligence sharing between states in 
the region needs to be encouraged and facilitated by 
international partners. In this regard the regional summit in 
Paris last month is a step in the right direction.
    Mr. Chairman, Ranking Member Bass, members of the 
subcommittee, nothing justifies the outrageous kidnapping of 
the Nigerian schoolgirls, and every realistic effort should be 
expended to secure their freedom. However, until the profound 
pathologies which beset the body politic and institutions of 
Africa's most populous and wealthiest country are addressed, 
and until Nigeria's international partners move beyond mere 
rhetorical gestures, it is well nigh inevitable that the 
tragedy of the Chibok schoolgirls will sadly be repeated many 
times over as the kidnappings of some 20 women from a nearby 
hamlet just days ago underscore.
    Thank you for your attention. I look forward to your 
questions.
    Mr. Smith. Dr. Pham, thank you very much for your 
comprehensive testimony.

    [The prepared statement of Mr. Pham follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                   ----------                              

    Mr. Smith. And Mr. Ogebe.

   STATEMENT OF MR. EMMANUEL OGEBE, MANAGER, JUSTICE FOR JOS 
                 PROJECT, JUBILEE CAMPAIGN USA

    Mr. Ogebe. Yes. Thank you very much, Chairman Smith, 
Ranking Member Bass, and distinguished Congressmen. I thank you 
kindly for once again giving me the opportunity to engage with 
you on the topic that currently agitates the conscience and the 
consciousness of many on our globe today.
    I want to share with you some of the perspectives from our 
recent visits to Nigeria, and I would ask your indulgence that 
my full statement be submitted for the record.
    May I say, sir, that it took the U.S. 25 months after first 
two Americans were attacked by Boko Haram before the 
designation of Boko Haram as an FTO occurred. It took the UK 16 
months, after the first British citizen was killed, before the 
UK designated them, and it took the U.N. 33 months after the 
bombing of the U.N. headquarters in Abuja before they imposed 
sanctions on Boko Haram, and on June 2, the EU finally 
designated Boko Haram a terror group even though the first 
European citizen was killed 25 months earlier.
    So this shows there has been a systematic pardon by the 
international community to drag their foot on a group that is 
now recognized to be the second deadliest terror group in the 
world after the Taliban.
    May I just say that one of the things we noticed on my 
recent trip to Nigeria last week is that when I was in Nigeria 
in April, the average deaths a week were approximately 100. In 
the 4 days we were in Nigeria last week, the average was 100 a 
day, and so the world is unanimously against Boko Haram, but 
Boko Haram is still horridly against the world.
    May I go on to say with regard to--I have six points here 
with regard to the status of Boko Haram's activities, but I 
will only mention two. One of them is the elevated gender-based 
violence. And that, of course, we have seen with the abduction 
of the women, but in addition to the abductions, this week we 
had, for the very first time, a report of a female suicide 
bomber, so Boko Haram is continuing to evolve its tactics and 
its horrors.
    The point number 5 here I will skip to is increased global 
Jihadi ties, and this is important. A British radicalized 
Nigerian citizen has been implicated in the bombing in Abuja 
that took almost 100 lives. Now, why this is important is that 
we have only seen three British radicalized Nigerian terrorists 
undertake attacks.
    The first attack was against the United States of America 
when the underpants bomber tried to blow up a Delta plane. The 
second attack was last year when a British radicalized Nigerian 
beheaded a British soldier on the street, and then the third 
one was in April when they attacked a bus station in Nigeria. 
What this tells us is that Britain is becoming a source 
destination and transit country for terrorists who want to 
attack in Syria as well as in Nigeria, and this, I suppose, 
validates the fact that global terror is working hand in hand 
to undermine global security.
    Now, if I may go ahead, I would want to talk about 
Nigeria's response to the insurgency, and I want to point out, 
as my colleague already has, that, you know, Nigeria's multi-
million-dollar CCTV cameras and Nigeria's satellite have 
dropped out of the sky, so there are so many aspects of the 
dysfunction and inefficiencies in the system that complicates 
the threat metrics in Nigeria.
    I would want to point to point number 4 here where I talk 
about inadequate victim relief and psychosocial support. We met 
with parents of missing kids, and one of them told us how at 
least two parents that he knows have died from the sheer trauma 
of the not knowing what has happened to their kids. This is 
just the horror that keeps on giving, if one may use that 
expression.
    One of my concerns in trying to work with Nigerian 
Government leaders, especially those working refugee issues on 
why they have not been able to repatriate or assist IDPs was 
that all of that is under the national security advisor, and I 
would think that something as critical as care for citizens and 
displaced people would not be the forte of the NSA. The NSA has 
a lot of issues on his hands, and so Nigeria has this unwieldy 
bureaucracy that makes it not effective.
    Maybe I should touch on point number 5 with regard to 
dwindling troop morale. We have heard, of course, of the mutiny 
that occurred. There was reports yesterday about possible 
defections to Boko Haram, but it is easy to see that all is not 
well in the military establishment in Nigeria.
    I have a sub-header here on the international response, and 
particularly with regard to the U.S. Our findings indicate that 
the offices in the U.S. Embassy that should liaise with the 
Nigerian authorities on some of this critical issues are 
overstretched and understaffed. One of the diplomats expressed 
that they were sent out of Nigeria to a neighboring country at 
a critical stage in the investigations concerning the missing 
girls, and so that has, of course, been a concern for the folks 
at the Embassy who want to work on these issues.
    Similarly, I am aware that some years ago, the Treasury 
office that was located in our consulate in Lagos which is 
responsible for tracking financial crimes and transfers and 
things of that nature, was, for some reason, moved to South 
Africa, and so you begin to wonder, where are the resources to 
implement the FTO and to--and to trace terror financing, which 
is badly needed.
    I would like to skip, if I may, to point number 3 in my 
statements, and I am talking here about the competitive 
disadvantage the United States has with regard to the area 
surveillance they are currently undertaking in Northern Nigeria 
in the hope of finding the girls. The problem with this is that 
this is an hour late and a dollar short because what has 
happened is that Boko Haram began aerial evasion techniques 
1\1/2\ years ago when they were in northern Mali. They were 
already conducting drills to evade drones, and so when we come 
in 1\1/2\ years later, they are at least 1\1/2\ years ahead of 
us in that strategy.
    I would like to draw attention to another, I think for me, 
the most unsettling point here, which is poor intelligence. We 
met last week with one of the escaped girls, one of the Chibok 
girls who escaped from the terrorists, and to our shock and 
consternation, she had not been interviewed by the Nigerian 
police, she had not been interviewed by the Nigerian Army, and 
so the impression we have is that for some reason, 2 months 
after their abduction, the investigations have not been going 
very well if this key witness has not been interviewed by 
anyone.
    I think it was particularly unsettling that it would take 
an American NGO and an American Congressman to find out the 
facts of what happened to her. And several pieces of 
information she gave us last week are not even in the public 
domain, and so I am concerned that the multi-disciplinary force 
that the U.S. sent in has not been effectively able to work 
with the Fusion Centers in Nigeria to show them the basic 
groups of how to conduct a missing person investigation.
    I have several recommendations here, and I am going to just 
probably work on two. The first is the U.S. needs to provide 
technical assistance to Nigeria to set up a victim compensation 
fund similar to what we had for 9/11. There does not seem to be 
a sense of urgency on the Nigerian side to provide relief and 
systematic assistance to victims of this atrocity, and the 
United States needs to encourage Nigeria to do that and share 
with them the model that was used very effectively after 9/11. 
But let me say here that in addition to sharing with Nigeria 
that model, the United States has the ability to fund such a 
victim relief or compensation fund, not by using taxpayers' 
money, but by releasing Nigerian funds that have been frozen in 
the United States or have been subject to asset forfeiture. We 
think that this is one way to get the Nigerian Government not 
only to do what is right, but to do it in a transparent manner 
that directly benefits citizens that have been impacted by this 
situation.
    I want to give kudos, if I may, to the State Department. 
This year they decided to start funding child terror camps for 
children who survive terror and they come to the U.S. to a 9/11 
camp and get trauma care, and so this is a notable action by 
the State Department that we would like to applaud.
    Let me maybe throw a challenge now to many Americans, 
including the American Congresswoman and American Ambassadors 
who have actually gone to school in Nigeria and say that this 
is a time to stand with this country to ensure that there is 
not a rollback of education.
    So I am prepared to wrap up my remarks. I want to maybe 
point out that one of the real concerns for us with regard to 
the battle against Boko Haram is the fact that the United 
States, State Department in particular, has continued not to be 
very frank and truthful about the threats, the goals of the 
organizations, their objectives, and so on and so forth. I was 
particularly concerned to read Ambassador Carson saying a 
couple of weeks ago that Boko Haram does not present a threat 
to the United States of America today. Let me point out beyond 
any doubt that not only has Boko Haram remained a threat to the 
U.S., it has attacked four American citizens that I know of. It 
has attacked an American diplomat working with United Nations, 
it has attacked an American diplomat working at the American 
Embassy in Abuja, and it has attacked two American charity 
workers working in northern Nigeria. It beats me why the State 
Department has not acknowledged that still to date.
    As I wrap up, I do want to point out that the release and 
the prisoner swap with Sergeant Bergdahl could potentially have 
a negative impact on the ability of the Nigerian Government to 
negotiate with the terrorists to free the girls. I think that 
it presents itself as a victory to the Taliban, and as a 
result, Boko Haram may decide that, you know, we want the 
bigger stakes to be able to release the girls. I, therefore, 
would encourage the U.S. to consider the global ramifications 
of its dealings with terrorists in that nature before they take 
them, because the danger now is that American citizens might 
become human bitcoins for terror trades around the globe 
because the terrorists obviously are in constant touch and in 
constant leakages around the world.
    And so these are some of the few quick points I wanted to 
make, and I wanted to again thank you very much for the 
opportunity to share some of this thoughts with you, and I 
commend your courage and your lead in taking this up this issue 
at a time when no one was paying attention. Thank you.
    [The prepared statement of Mr. Ogebe follows:]
    
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Ogebe, thank you very much for your 
testimony. I just want to note for the record that it was you 
who set up the meeting for me and my staff director to meet 
with the young 18-year-old survivor of the Chibok abduction. 
She left before they had even gotten a kilometer away from the 
school, but still was extraordinarily traumatized, so thank you 
for setting that up.
    Mr. John-Miller.

  STATEMENT OF MR. ANSLEM JOHN-MILLER, REPRESENTATIVE TO THE 
      U.S., MOVEMENT FOR THE SURVIVAL OF THE OGONI PEOPLE

    Mr. John-Miller. Mr. Chairman, Ranking Member Bass, all 
protocols observed. I thank you and members of your committee 
for giving me the opportunity to address you on current 
developments in Nigeria as they relate to the atrocities of the 
Boko Haram and how the United States and Nigeria can continue 
to work together to put an end to the activities of this 
terrorist group.
    First, I commend the Government and people of the United 
States for condemning the kidnappings of the Chibok girls and 
the Obama administration's effort with the Nigerian Government 
to secure the release of these girls. I am very positive that 
with such collaboration, the Chibok girls will ultimately be 
reunited with their families. On the current efforts to rescue 
the abducted Chibok girls, I must emphasize that the United 
States and other countries involved encourage the Nigerian 
Government to employ every means available at its disposal, 
including diplomacy, to secure their release. While I continue 
to maintain my position that no government should negotiate 
with any terrorist group, I am deeply concerned that if the 
same principle is adopted in the case of the Chibok girls, 
their return may not be in the near future.
    Since the abducted girls are Christians, they risk being 
killed by the leader of Boko Haram because he knows that the 
girls remain Christians, despite their so-called conversion. He 
may resort to killing the girls if force is employed in their 
rescue just to blackmail the Governments of the United States, 
Nigeria, and others. In this regard, I commend the efforts of 
ex-President Olusegun Obasanjo, who has initiated some moves to 
secure the release of the girls through dialogue and diplomacy.
    While the United States and the international community's 
attention is focused on how to secure the release of the 
abducted Chibok girls, it is important to note that this 
sophisticated and coordinated attacks that Boko Haram was 
carried out after the abduction of the girls show that the 
organization remains strong, bold, and determined to inflict 
unimaginable harm and destruction on Nigeria so that the 
Nigerian State will plunge into total anarchy and chaos, 
thereby making it ungovernable.
    As such, the ongoing war against Boko Haram in Nigeria 
should be treated--should not be treated with levity or treated 
as a local Nigerian crisis, but should be elevated to the 
status of the war against al-Qaeda. The United States Congress 
should, therefore, work closely with the Obama administration 
to develop comprehensive counterterrorism strategies that will 
help Nigeria to crush Boko Haram and put an end to the carnage 
and sufferings of the people of the northeastern part of 
Nigeria and the neighboring countries of Cameroon, Chad, and 
Niger Republic. Many terrorism experts and scholars have 
attributed poverty and underdevelopment in the northeast of 
Nigeria as the cause of Boko Haram and prescribed provision of 
job opportunities and development of the region as a solution 
to the problem, and I partly agree only in the context that 
poverty and idleness makes youths of the area vulnerable and 
easy targets for recruitment as Boko Haram operatives. However, 
I strongly believe that if the youth recruited were not 
interested in terrorism, they would have resisted because 
poverty, underdevelopment, and idleness is not confined only to 
northeast region of Nigeria, but visible everywhere in the 
country, especially in the Ogoni and the Niger Delta regions.
    Solving the problem of Boko Haram in Nigeria cannot be 
achieved without addressing the issue of corruption. While 
there has been much focus on corruption at the national level 
of governance in Nigeria and the military, very little 
attention has been paid to the level of corruption at the state 
and local government levels in the northeast and other parts of 
the country. Nigeria operates a Federal system of government. 
We share power between Federal, state, and local governments. 
These states and local governments receive monthly allocations 
from the Federal Government and are expected to use the funds 
to provide basic amenities and develop their states and local 
governments.
    However, such funds end up in the private accounts of the 
state Governors and the local government chairmen installed by 
the governors, resulting in paltry sums of money being spent on 
programs that have direct impact on the lives of the citizens 
of the state and local communities.
    To address the problem of corruption in Nigeria, I propose 
that the United States Government partner with Nigeria to 
encourage transparency and accountability at all levels of 
governance. The United States should also, through its Justice 
Department, investigate and confiscate all funds stolen by 
those in power at all levels in Nigeria and saved in banks in 
New York, Dubai, London, and so on, and prosecute the culprits. 
The benefits those corrupt politicians enjoy now such as 
sponsoring themselves and their families on limitless trips to 
the United States and other developed countries to spend 
holidays, buying expensive cars and luxury houses, and 
educating their children in the best schools in foreign 
countries at the expense of suffering masses should be stopped 
forthwith.
    It is only such decisive steps that will send a clear 
message to the rulers of Nigeria that the United States is 
serious about tackling corruption in Nigeria. While a few 
people may argue that the United States confiscating and 
arresting corrupt Nigerian politicians anywhere in the world 
may amount to interfering in the internal affairs of a 
sovereign nation, I posit that such a step is reasonable and 
morally justified, especially since corruption breeds 
discontent and provides a platform for its victims to be 
recruited as agents of terror.
    Closely related to corruption are the human rights abuses 
committed by the Nigerian soldiers. It is no secret that 
Nigerian soldiers torture and commit terrible human rights 
abuses when deployed to various communities, and as such 
discourage the local population from cooperating with them and 
providing intelligence that would have helped in accomplishing 
their missions. A clear example is the activities of Major Paul 
Okuntimo, the then chairman of the disbanded Rivers State 
Internal Security Task Force who committed all sort of 
atrocities in Ogoniland during the height of the Ogoni struggle 
in the 1990s. Despite the extrajudicial killings and crimes 
against humanity, Major Paul Okuntimo and his men committed in 
Ogoni, he remains a free man walking on the streets of Nigeria 
instead of being locked behind bars.
    In recent times, several allegations of human rights abuses 
has been leveled against the soldiers deployed to northeast to 
fight the Boko Haram insurgency, and to date, no investigations 
have been carried out to unveil the truth or otherwise of the 
allegations. With such negative perception about the soldiers, 
the citizens find it very difficult to collaborate with them, 
and without the involvement of the locals who know the Boko 
Haram operatives, it is very difficult to defeat the terrorist 
group.
    To address this issue, the United States Government should 
prevail on Nigeria to set up an independent judicial panel or 
empower the National Human Rights Commission to investigate 
such allegations, and any soldiers incriminated be prosecuted 
so as to serve as a deterrent to others. A case in point is to 
also influence the Nigerian National Assembly to immediately 
pass the Enforcement and Punishment of Crimes Against Humanity, 
War Crimes, Genocide and Related Offenses bill of 2012.
    The declaration of Boko Haram as a Foreign Terrorist 
Organization by the United States Government after the initial 
reluctance is a welcome development because it paves way for 
the United States Government to take various steps, including 
freezing of bank accounts, deployment of drones, and other 
assets to fight the terrorists. However, one major step that 
should be taken that will make the current war against Boko 
Haram successful is to work with the Nigerian Government to 
identify the sponsors of Boko Haram and bring them to justice.
    On occasions, notable commanders of the Boko Haram have 
been apprehended while hiding in the houses of influential 
politicians without the host politicians being questioned and 
investigated over their ties with the terrorists arrested.
    With such developments, civilians who would have provided 
credible and actionable intelligence are afraid that doing so 
would put them at risk, and inasmuch as this ugly trend 
continues, the Boko Haram insurgency will continue.
    To address this challenge, I urge the Congress to mandate 
that the Justice Department to immediately initiate steps to 
collaborate with the Nigerian security and intelligence 
services to investigate, arrest, and persecute all alleged 
sponsors of Boko Haram in the United States, or alternatively, 
the United States should work with other permanent members of 
the U.N. Security Council to set up a special terrorism court 
to try all those arrested for involvement in the activities of 
Boko Haram in Nigeria. Persecuting the sponsors and operators 
of Boko Haram in an international court will send a clear 
message to members and potential members of the terrorist group 
that the international community is very serious about bringing 
them to justice.
    It is imperative to note that Boko Haram insurgency has 
both religious and political undertones. The inflammatory and 
incisive statements made by some Islamic clerics and 
politicians, especially from the northern part of Nigeria prior 
to and after the election of President Goodluck Jonathan in 
2011 has also served as an incentive to the insurgents. Shortly 
after the 2011 Presidential election, some notable politicians 
from the north called on the masses in northern Nigeria to 
revolt against the newly-elected President. With such 
statements coming from such influential leaders, their 
supporters subsequently rioted and attacked innocent graduates 
who were employed by the Independent National Electoral 
Commission, INEC, to help conduct the elections.
    To date, no single individual involved in instigating those 
unwarranted attacks on innocent graduates who devoted their 
time and efforts for the service of their country have been 
brought to justice. It is also crucial to note that the 
intensification of the attacks by Boko Haram is linked to the 
forthcoming 2015 general elections, and as such, necessary 
steps have to be taken by the United States and the 
international community to ensure that the outcome of the 2015 
general elections are devoid of all forms of malpractice 
because such would help in maintaining stability in Nigeria. A 
major step in this direction is to mobilize international 
observers to ensure that all votes are counted immediately at 
the polls and at the polling stations in the forthcoming 2015 
general elections.
    As the United States Government seek ways to assist Nigeria 
in addressing some of our challenges, it is also instructive 
that both countries identify flash points where future crisis 
might erupt and take proactive steps to address them. A clear 
example of such flash points is the case of Ogoni. The Ogoni 
people, since the 1990s, had made presentations to the Nigerian 
Government and Shell and the international community to address 
the environmental challenges caused by reckless oil exploration 
in the area. To date, nothing has been done about it.
    In August 2011, the United Nations Environment Programme 
released the report of its findings in Ogoniland and submitted 
a report to President Jonathan who promised to promptly 
implement the report. In anticipation of a massive protest by 
the Ogoni people for failure of the government to implement the 
report after 1 year, the government, in 2012, established the 
Hydrocarbon Pollution Control and Restoration Agency, HYPREP. 
Despite their reservations, the Ogoni people assured the 
government and Shell that they will work with the government to 
implement the report. However, it is sad to note that to this 
date, very little attention has been paid to that. However, the 
United States has a role to play. It should encourage the 
Nigerian Government to address issues that are legitimate and 
will also be flash points in future.
    While the UNEP report remains unresolved, hundreds of Ogoni 
refugees and political asylum-seekers remain stranded in the 
Federal Republic of Benin, living under dehumanizing conditions 
such as no access to food, medication, education, and the rest. 
One of the cardinal solutions to the Ogoni problem has--as 
advanced by the Ogoni people, has been to ask the Nigerian 
Government to at least establish a Bori state. To date, not 
much has been said about that. However, it is difficult to 
assess that the outcome of the ongoing national conference in 
Abuja will be helpful given the majority versus minority 
efforts.
    Lastly, I would call on the United States Government that 
as a strong partner of Nigeria, they continue to work with the 
Nigerian Government to encourage address our problems. However, 
one major step that can be taken is to appoint a special envoy 
that will work with the U.S.-Nigeria Binational Commission to 
coordinate the efforts because so far, it is clear that both 
the United States has what it is doing on one hand and the 
Nigerian Government on the other hand. Once again, thank you 
for giving me opportunity to address you.
    Mr. Smith. Thank you very much, Mr. John-Miller.
    
    [The prepared statement of Mr. John-Miller follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                      ----------                              

    Mr. Smith. I would like to now welcome Ambassador Sanders.

STATEMENT OF THE HONORABLE ROBIN RENEE SANDERS, CHIEF EXECUTIVE 
   OFFICER, FEEEDS ADVOCACY INITIATIVE (FORMER UNITED STATES 
                     AMBASSADOR TO NIGERIA)

    Ambassador Sanders. Mr. Chairman, Ranking Member Bass, and 
members of the committee, I want to thank you for inviting me 
here today to testify before you. I just returned from Nigeria 
and was in-country when the international community became more 
aware of the horrible kidnapping of 247 girls by Boko Haram on 
April 14, 2004.
    Honorable members, you have asked the panel today to 
discuss the ongoing crisis in Nigeria, and there are several 
components to this issue. However, my remarks will be based on 
my knowledge of the region, as I have been in every state in 
Nigeria and traveled by road from Abuja to Boko Haram's current 
expanded territory at least four times during my tenure there; 
what I know of Boko Haram before and since its resurgence, 
noting that it existed since the late 1990s; and my 
conversations and firsthand observation while on my recent 
trip.
    I will address three things: The security environment in 
Boko Haram and areas of possible additional assistance; why 
Boko Haram was not initially considered an FTO or Foreign 
Terrorist Organization; and address what I am hearing on Chibok 
by my contacts.
    First, the Nigerian security services in the face of Boko 
Haram. Current Nigerian services have never experienced 
anything like what they are facing with Boko Haram today. They 
need to understand that Boko Haram is unlike the Niger Delta 
conflict, and they need to toss out that playbook in records to 
this conflict. Boko Haram is executing asymmetrical warfare, 
and for the most part, this is outside of the framework of the 
security forces and their capability to effectively respond.
    The Nigerian security services have been in recent 
conflicts, particularly the military, in recent conflicts in 
northern Mali, including the initial Nigerian Force Commander. 
The troops that have also served in Darfur are probably the few 
that have had the closest experience to asymmetrical warfare, 
which they are facing now. It is good that Nigeria has accepted 
international assistance.
    From my time on the ground, they have always had--I am 
talking about the Nigerian military and security services--the 
following challenges: Airlift, and these are also concurrent 
with my recommendations. Airlift. Airlift is key to troop 
rotation. As I heard reports on the ground of PTSD while I was 
there, it is important because of the distances and tough road 
travel in the northeast, and airlift is also important because 
it will help them react faster to the changing situation on the 
ground as they try to cover 600,000 square miles of territory 
about the size of either Georgia or Wisconsin.
    The services need additional materiel, a special mobile 
communications equipment, vehicles, technology-based bomb 
detection equipment. From what I saw in many places when I was 
on the road there, the bomb detection equipment is quite 
rudimentary, and they certainly need improved control over the 
porous borders, as we have already heard from my colleagues.
    They need improved military planning, logistics, equipment 
supplies, including sufficient spare parts and fuel. They need 
to expand its small special forces unit and its 24/7 
counterterrorism center, both which were stood up or begun to 
stood up while I was there. They need to establish a satellite 
CT center closer to the northeast so information doesn't take 
so long to reach and be analyzed. They need more rapid response 
forces or what we call mobile units and probably more outposts. 
Security service personnel and resources are both stretched 
thin. Realignment is better needed to address the current 
threat, improvement in strategic communication and review of 
existing communication approaches because what they have now is 
not working internally or externally with affected communities, 
particularly with the families.
    I would suggest a liaison committee led by someone 
respected for their human rights values that engages with and 
keeps the families informed, not someone who is a spokesperson 
used to dealing with the press, but a real advocate for the 
families.
    I traveled through Kano last month by road, and on my way 
to visit an agricultural project, I did observe a lot of the 
checkpoints along the way. There are about 30 to 50 kilometers 
apart. I did not see the ability to communicate between most 
checkpoints. I understand that in the northeast this is more 
acute as distances between some checkpoints are greater, adding 
to what we already know that information is not reacted to in a 
timely or effective matter. I am not excusing the poor 
responses and late reaction date. I am just providing 
recommendations from a strategic perspective on things that can 
be and need to be addressed right now, and I would hope that 
the assistance packages for Nigeria are including this.
    I also want to highlight that I think that this is a long 
war and a long conflict. Nigeria is at the beginning of this, 
and they have to realize this. This is no longer a localized 
conflict or insurgency. There is no easy fix, and every attack 
in response to Boko Haram cannot be viewed as a death knell 
blow to it. Long-range security framework to terrorist threat 
is what is needed. The security services need to regroup, 
reapproach, readdress in order to begin to get off their heels 
on the defensive and get more on an aggressive offensive 
footing.
    Right now, the security services are outgunned and out-
strategically played. One thing I also want to put into the mix 
on which I am not sure there has been much focus is the 
language differences. Most of the security services in the 
northeast are Hausa speaking, while the majority of the village 
populations in both Borno and parts of Yobe are Kanuri 
speakers. Just like the U.S. Military had to ramp up on its 
Arabic speakers for Iraq, the Nigerian military will need to 
increase its Kanuri speakers as well.
    My next comment will be an unpopular thing to hear from 
many, but there are people and elements in the Nigerian 
military who are committed and serious, but they are under-
supported and need resources. This does not dilute the issues 
of the very real challenges for security forces and reports in 
the past of corruption and failure to respond. That being said, 
I had several rank and file security service members come up to 
me on my last trip to say, ``Madam, you know some of us. You 
know we are not all bad. We do our jobs for our country. Tell 
people this, Madam,'' and I said that I would.
    I highlight this to underscore who is going to fight this 
war, who is going to fight this conflict if it is not for the 
Nigerian security forces, along with assistance from the 
international community. They are the vanguard on this 
conflict, so we need to help them pull up their bootstraps as 
an institution, address any challenges that they might have, 
get it together so that they can effectively fight and fight 
the security threat they are facing. If this entire security 
structure becomes demoralized, then who is going to fight this 
conflict?
    There have already been reports of one or two incidents 
where military units allegedly have shown their frustration by 
shooting at commanders' convoys. One happened when I was there. 
Relationships with neighbors on terms of sharing intelligence. 
Neighbors around Nigeria, they need to really work together and 
begin to really share not only resources but human intelligence 
information from villagers in Nigeria as well as neighboring 
countries. This will be critical elements to fighting this war, 
this conflict.
    There has to be better control of the porous borders and 
cooperation. P-3 surveillance planes can assist with this, but 
in the end, on-ground human intelligence is going to be key. 
Boko Haram also has been brutal, so brutal that that several 
villages and markets have completely disappeared. And I really 
appreciate your comment, Mr. Chairman, about raising the food 
security issue. Food is becoming scarce as planting and 
commerce have both dried up. The international community also 
needs to keep an eye on the food security situation as food 
shortages could become a real issue down the line.
    Turning to the question of the designation of Boko Haram as 
a Foreign Terrorist Organization. As I said earlier, Boko Haram 
has been around since the late 1990s and was more commonly 
referred to then and going forward, up until about 2003, as the 
Nigerian Taliban. Prior to the last 4 years, it executed 
localized sabotages, attacks on police stations, and recruited 
young people into the group but no kidnapping at that time. 
Evidence of some Boko Haram contacts with AQIM started to 
surface about 9 months after the extrajudicial killing of its 
then leader Muhammad Yusef and his key lieutenant Al Haji Buji 
Foi in July 2009. This was shared with the then-government.
    I was in Nigeria when Yusef was captured and killed, almost 
before the cameras, by Nigerian police. From early 2010 until 
August 2011, almost a full year, there was a lull with some 
small acts and again localized. The morphing of Boko Haram to 
using al-Qaeda or AQIM-like tactics to achieve the goal of 
establishing an Islamic extremist caliphate began really 
surfacing in mid 2011 with the bombing of the U.N. headquarters 
in Abuja. And since then, Boko Haram has continually gotten 
more expansive in both its reach and brutality from 2010 to 
2014.
    I will expect disagreement on this, but earlier than August 
2011, before it bombed the U.N. headquarters in Abuja, in my 
view, Boko Haram would not have met the third leg of the cited 
FTO designation in the law. It must be a foreign organization; 
check. It must be engaged in terrorist activity; check. Its 
terrorist activity or terror must threaten the security of U.S. 
nationals or national security. That didn't really start to 
happen until 2011, and the rest of the designation also 
outlines that you have to have a consistent record over time in 
order to start making the case for FTO which began at that 
time.
    Chibok. First, my heart goes out to the families and the 
missing girls wherever they might be as I know they are 
suffering, scared, and afraid. In Paris Monday, there was a 
global conference on women, and one of the things that was said 
regarding the Chibok girls is that this tragedy is the epitome 
and dehumanization that girls do not have the right to control 
their own fate, their own education, and who they might choose 
to marry.
    Despite reports out of Nigeria, I do not think, and this is 
my personal view and assessment from having just been out 
there, that most of the girls have been in Nigeria for a long 
time. We have no idea how long ago the videos being shown were 
taken. And these terrorist groups learn from each other, and 
Boko Haram is nothing but strategic; therefore, I think it is 
unlikely that most, maybe not all, the girls have been put into 
smaller groups, taken across the border to Chad or Cameroon or 
elsewhere, or even if they remain in Nigeria or some of them 
do, they are probably in smaller groups or in singular 
situations. So again, the human intelligence factor, the 
HUMINT, that means everybody working together, sharing on 
ground resources is going to be critical to hopefully finding 
some of them.
    I also do not want us to forget that from January through 
March 2014, young girls were being kidnapped, killed, 
terrorized, and brutalized by Boko Haram. Yesterday, as we 
already heard, more than 20 more women were reported kidnapped 
near Chibok.
    During January through March 2014, young girls were burned 
to death in their dorms, other kidnapped, divided up based on 
their physical maturity level, and those who showed signs of 
puberty had their throats cut. All of these actions show that 
Boko Haram Shekau is acting on one of his stated goals, that he 
would make the mothers and the daughters of Nigeria suffer in 
revenge for the capture of Boko Haram family members by 
Nigerian security forces.
    I highlight all of these things to underscore that we as 
the international community cannot be sporadic on these 
horrible human rights violations and brutality of young girls. 
We must do all we can to protect the young women in the north, 
and I have a few recommendations, mostly on the human side of 
things just in case the current assistance packages are not 
including these things.
    I strongly believe that more trauma and grief counseling 
for the families and the returned girls must be at the top of 
the list. I already mentioned the liaison committee by someone 
respected for their human rights values that can help keep the 
families informed and also to avoid the similar tragedy that 
happened in Malaysia with the families not being informed and 
not kept in the loop. Ensure that the girls that have returned 
and their families are protected so they don't become victims 
again.
    As I am sure, Boko Haram is watching what happens with 
them. If we protect their faces, this doesn't mean that Boko 
Haram elements can't figure out who they are, so we need to be 
careful with their safety. I also believe that President 
Jonathan should meet with the families, even if it is not in 
Chibok.
    And I am not making an apples-and-oranges comparison 
necessarily, but if the world community can mobilize tons of 
financial technical human resources to find the missing 
Malaysia plane of 239 people, it can mobilize the same, it can 
mobilize the same, to find the 247 girls, no matter in what 
country they are located.
    Things such as mistrust among neighboring countries in 
sharing intelligence information must take a back seat. I do 
see an array of assistance but nowhere near the level of 
mobilization that is probably needed by the entire 
international community full-time, all the time.
    Thank you Mr. Chairman, thank you Ranking Member Bass, and 
members of the committee.

    [The prepared statement of Ambassador Sanders follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                      ----------                              

    Mr. Smith. Ambassador, thank you very much for your, again, 
comprehensive statement, but also your very comprehensive 
recommendations as to what should be done. You asked the 
threshold question, who is going to fight this war, and of 
course it is Nigerian military. I think your point about that 
Boko Haram is executing asymmetrical warfare, that is, for the 
most part, is outside of the framework of the security forces 
and their capacity to effectively respond is a very profound 
and necessary statement.
    People are wondering why the success has not been gleaned 
by the military. I remember in Darfur, meeting with troops that 
had been deployed there as peacekeeping. This isn't a 
peacekeeping mission. This is, as we all know, a 
counterinsurgency mission that requires a very, very 
specialized set of skills and training, and as Dr. Pham has 
pointed out in his testimony, you know, the 650-man battalion 
that is being trained up, while that is good, that is certainly 
only a drop in the bucket, I would respectfully submit, as to 
what is necessary.
    So my first question to the panel would be--as I said in my 
opening, I am very much in favor of vetting, as you pointed 
out, Dr. Pham, in your statement. Vetting is important, 
tailored efforts that meet the current vetting requirements can 
help Nigerian forces strengthen their civil-military affairs 
capabilities, but there are some aspects to vetting and 
exclusion of certain individuals who are capable and are not 
human rights abusers that may be excluded because of the 
current modalities employed by the Leahy amendment, and I was 
wondering if any of you, perhaps the Ambassador or Dr. Pham or 
any of our distinguished panelists would like to speak to that.
    Your point about the command and control and the ability to 
communicate, Madam Ambassador, is right on. I was there on the 
ground for 4 days and heard some of the U.S. experts and 
others, not being critical, but being observing what is taking 
place. The ability to communicate quickly, effectively with 
actionable information has to be at the top; otherwise, Boko 
Haram is gone, they have moved on, they have either abducted or 
killed in another area, and now they are somewhere else, so I 
think your point was extremely well taken there.
    Maybe there is a need, if you would speak to this as well, 
$6 billion. I have heard as much as $8 billion for their 
defense budget. Given their oil reserves and capacity there, 
money shouldn't be an object to ensuring that there is, for 
want of a better word, an emergency supplemental funding to 
make sure that the bullets, the capabilities are there, 
including command and control, in a very, very expedited way so 
that the troops that are trained, properly vetted, 
counterinsurgency capacity can wage a battle, as you pointed 
out, Madam Ambassador, this is going to be a long-term battle. 
I think we kid ourselves if we think this is going away anytime 
soon, especially since it is in ascendancy, not descendancy, so 
if you could speak to that issue as well.
    And finally, on the issue of intelligence. I am very proud 
of what the United States is doing and very impressed by the 
capabilities of our men and women who are providing 
intelligence at the Fusion Center. It is, as you said, Dr. 
Pham, a very light footprint. It is very important that there 
not be a huge international presence, the likes of which could 
be counterproductive, particularly to the propaganda war being 
waged by Boko Haram but very, very well focused capacity, 
assistance, and training, it seems to me, ought to be 
quadrupled, particularly in the area of training. I mean, they 
have the troops. They have the motivation. They just need a 
specialized skill that those of us in the West have been 
fighting, particularly our militaries, for so long in combating 
al-Qaeda and other kinds of groups, so if you could speak to 
those issues, I would appreciate it.
    Mr. Pham. Thank you, Mr. Chairman. Let me just briefly 
address your three points and defer to my colleagues. On the 
Leahy amendment, we all share the belief that, by and large, 
the Leahy law protects U.S. interests in the long term, but you 
do raise the question of the exclusion of qualified individuals 
who might be useful in this current fight.
    I would emphasize, I think, that the Leahy law, as I 
understand it, excludes battalion- and brigade-level units that 
have been implicated in, or at least well-documented human 
rights abuses. In many respects, what is needed in many of 
these units to raise morale in not only training but reforming 
of new units to give them a new identity, a new start. Before I 
turn away, I don't want to say the Leahy law is irrelevant, but 
in a way we have got to work around. Although, already we have 
vetted 187, I believe, Nigerian military units and 173 police 
units, so there are actually whole Nigerian units that could 
receive assistance even now in their current form, but for 
other units, I think we can get qualified people, and sometimes 
that is the best thing. We have learned our own experience of 
the last decade in some of the wars, sometimes pulling people 
from different units and forging them together is the best way 
to move ahead. So I think we can--there are workarounds. We 
just need to be creative about it.
    Secondly, with respect to resources, I would tend to 
emphasize that we can get more, no puns intended, bang for our 
buck with Nigeria's neighbors. Nigeria is a wealthy country. It 
can afford--it needs training, but it can afford resources. The 
neighbors are less well-off, especially countries that have 
demonstrated a political will to fight the terrorists, Niger 
being a good example of that, but simply don't have the 
resources, and there, because it is a smaller country, smaller 
military, we can better account for the funding being spent and 
the multiplier effect of having them seal their borders which 
Boko Haram has been using to cross, crossing Niger, Chad, other 
countries, might be a better use of our limited resources and 
then devote our resources in Nigeria to training rather than 
materiel, which Nigerians are more that capable of paying for 
themselves.
    And finally, on the intelligence issue. I probably would 
agree with your assessment on the good that we have done with 
the small number we put there, and we certainly can increase 
that. One thing, I would be remiss if I didn't use this 
opportunity to raise the fact that we do not yet, after years 
of constantly talking about this year in and year out, and 
Ambassador Sanders, I think, will be able to comment on, we 
have yet to deploy a diplomatic mission north of Abuja. This is 
an area with arguably the largest Muslim population in all of 
Africa, larger than even Egypt's population if you think about 
the number of Nigerians in the north. We don't have a 
diplomatic installation. We don't have even the lightest of 
footprints to build bridges, to gather knowledge of the people 
and to build relationships, which will help in--when we have to 
ramp up in these cases, an we need to revisit this with, I 
think, far greater urgency than even in the past. Thank you.
    Mr. Ogebe. Yes. I have a couple of quick points here, sir, 
and the first is that as we worked on advocacy to bring about 
the designation, the FTO designation, we found that it was 
easier to blacklist a foreign army under Leahy than it was to 
get a designation for a terror organization, and so that was, I 
thought, ironic.
    Secondly, the guidelines for appealing an FTO designation 
are easier than for reversing a blacklist under Leahy, so I 
think there needs to be some kind of parity between the two 
because we need some of this foreign armies to help us with 
regional security considerations.
    The second point I wanted to quickly address was military 
capacity. Nigeria used to have a really outstanding Air Force, 
but all the years of military dictatorship saw attrition, 
internal attrition as generals--one general after the other 
killed off some of the best pilots, and so on and so forth, 
they had, so we now see a Nigerian Air Force that is a shell, a 
real shell of its former self. And last year Boko Haram 
attacked an air force base and destroyed five jets, and the 
Army's response was, oh, you know, oh, the jets were faulty 
anyway, so it wasn't a big loss. But what are they doing having 
five broken down jets in your base in the first place?
    I think the one last point I will make on this is that part 
of the problem with the military strategy is that there is so 
much disinformation that it is difficult to even know where to 
help them. They are not being truthful about losses, about 
combat incidents, and so on and so forth, so you don't know 
what really is going on. And from what we can tell, they are 
taking a really bad bashing, as the Boko Haram video of the 
attack on Giwa barrack shows. They are really getting the short 
end of the stick in this battle. Thank you.
    Ambassador Sanders. Thank you for your questions, Mr. 
Chairman. I want to start on the intelligence issue because I 
think we need to have a broader discussion about expanding what 
we mean by that. Certainly I am 100 percent behind you in terms 
of the capability of U.S. intelligence. I had the privilege of 
having access to that, so I do respect that, but I am actually 
talking about human intelligence on the ground, having a way to 
either better communicate with villagers and locals living in 
the area so you get a better sense of what is going on, which 
is why I kind of raised the language issue because I remember 
being up there and being with Hausa speakers in terms--even the 
military police contingents that were with me and not being 
able to communicate once we got outside of Maiduguri with the 
population outside of the capital because they weren't speaking 
the same language.
    So when you look at some of these outlying areas, I was 
wondering whether or not, as part of this communication is that 
needs to be looked because maybe they are just not being able 
to communicate with each other. I am not reducing the issue any 
by saying that, but I think it is an issue that needs to be 
looked at. We found that for ourselves in Iraq, and I think it 
may be an issue for the Nigerians to pay attention to, so those 
two things.
    In terms of intelligence also, the CT center, which I won't 
say where it is, but I think they need to really have a 
satellite center closer to the area of conflict because if 
everything has to come back to where that center is located to 
be analyzed and reacted to, you are looking at days and 
sometimes weeks here to do that, so that is a reality that I 
think--I won't say it is a quick fix, but it is certainly a 
reality that can address some of the issues.
    And then in terms of troops, I don't know how many of the 
troops who serve in Darfur and Mali are either being included, 
maybe they are not even based in the north, I have no idea, but 
are they in this group that has been vetted that can actually 
provide some intel in terms of how you deal with asymmetrical 
warfare to their colleagues on the ground. I think that is a 
big issue.
    They have only a small special forces unit, and so maybe 
that is additional--I think maybe the trainers that we have 
there now from the U.S. are helping to do that, but their 
special units need to be expanded, and they have to have more 
mobile units than they have right now.
    Transportation from one point to another. I don't know if 
you have been up there or my colleagues have been up there in 
recent times, but it is a very, very difficult environment to 
travel in, so I can't--I can't underscore enough the need for 
equipment, vehicles, and others.
    On the human rights issue--sorry.
    Mr. Smith. Would you yield briefly? Would you encourage the 
Nigerian Government to do an emergency supplemental as we would 
do here, as we have done time and again to appropriate 
additional funds, because I heard story after story of too 
little ammunition, too little of everything, and how do you 
fight a battle or a war when you don't have the capability in 
terms of munitions?
    Ambassador Sanders. I have two responses to that. One, I 
think the money is there and they have enough money to do it. I 
don't think the money is being deployed properly, and I don't 
think it is getting where it needs to be. So you can add more 
money to the fire, but if it still doesn't get deployed where 
it needs to be and utilized properly, you are still going to 
have the same issue, so I would stress deployment and 
utilization of the resources they have more effectively and 
more efficiently and getting them to the right people that need 
to have it, and certainly, in the northeast, they are short on 
a lot of things, even fuel, you know, to get from one place to 
another.
    On the human rights issue, one of the things that I had 
suggested when I was on the ground recently, not this year but 
the end of last year, was really looking at having fast track 
military courts on human rights issues so that there is 
transparency in the process, that the public knows, the 
military knows, and there is a sense of addressing impunity if 
things do happen in the human rights arena. So, that hasn't 
been done yet, and I still think that that is something that 
they can do.
    The neighbors, cannot be stressed enough, their role is 
extremely important. They don't have the resources, but it is 
not only just resources. There is a general mistrust in sharing 
intelligence across countries, and I think that somehow we, 
maybe we can play a facilitating role in helping address that 
mistrust because without that kind of coordination, 
cooperation, and communication, then all the human intelligence 
stuff that we are talking about, even hard intelligence, is not 
going to be useful if it is not responded to in an effective 
and coordinated manner.
    On the FTO. I can just say this. I think that the--and then 
I will go back to Leahy, but on FTO, I would encourage, Mr. 
Chairman and Ranking Member Bass, that your subcommittee and 
your staff take a look at the details of the FTO. We are in a 
completely new global environment. When you look at the date on 
some of these updates, 1985, 1988, 1989, you know, we are in a 
completely different global world today than we were at that 
time, and we have a--I won't say a Cold War element here 
because it is not, the dates don't correspond, but in a way, it 
is structured that way, and in the end, I think that a closer 
look needs to be taken for the FTO so that we don't wait 12 
months, 25 months, 33 months to designate an organization that 
needs to be designated as such. So I would encourage that.
    I have already talked about the equipment issue. On 
presence in the north. That is really a thorn in my side, I 
must say, and I presume that my colleagues, who are on the 
ground there, feel the same.
    We have tried, I know, to establish a presence in the north 
several times. When I was there, there was an administrative 
decision at least. We didn't get to implementation phase to try 
to have a small consulate in Kano. There were a lot of 
administrative challenges to executing on the ground, most of 
which was security. How do we protect the Americans that would 
be there? What we did have there in Kano, in Bauchi, and in 
Borno, and I went to all three sites, we did have an American 
corner presence. I don't think because of the state of 
emergency that we can have those anymore, and the security 
situation; so the diplomatic issue, fundamentally and 
theoretically is absolutely on target. The reality, though, 
makes it a challenge for us as a government. How do we protect 
the people that are there, and how can they effectively do 
their jobs if they are then hunkered down and can't get out? So 
that is the reality that we have to talk about because American 
lives come first.
    On the Leahy amendment on vetting, I think that we can find 
qualified people and elements. As I said, I know a lot of them 
personally. I have worked with them firsthand. I went to every 
single military exercise that I could get to to really have a 
better sense of what the capability was and the environment 
was; and as I said, there are a lot of good, dynamic people in 
the Nigerian security services. I had two military police 
responsible for my protection when I was there for 3 years, top 
notch guys.
    So I would argue that, you know, let's walk the fine line 
that we have to walk on this, provide the training and 
assistance that we need to provide to the elements that we are 
sure of that have not been implicated in human rights 
violation. If they can stand up a fast-track military court to 
be able to address those other issues, let's get that done. And 
I think that I have addressed all of your initial questions.
    Ms. Bass. Thank you very much. I really want to thank all 
of the panelists. I think this has been an exceptional hearing, 
and I appreciate your information and your input and your 
recommendations. I just had a couple of questions. The report 
suggests that the Nigerian Government has been hesitant to 
accept U.S. assistance and, as a matter of fact, my 
understanding is we were trying to provide that assistance 
right away, and there was reluctance on their part; and I 
wanted to know if members of the panel could respond to that 
and maybe provide us some kind of insight. I would also like to 
know if that has changed.
    In my comments, I did go through several ways that I know 
our Government has been involved; but that doesn't necessarily 
mean it is all that welcome. And, Ambassador Sanders, and this 
also applies to other members of the panel, too, I wanted to 
know what you feel specifically, especially in the north, are 
the most pressing concerns. I know it is poverty, but what 
exactly does that mean? And I did understand that there was a 
Nigerian entrepreneur who said that he is going to go up to the 
north and provide some jobs. I don't know how specific or 
realistic that is. And I would, you know, agree with the 
panelists. It might have been Mr. John-Miller, I am not sure, 
who said that it is not just about poverty, but poverty does 
set the stage. When people are desperate, they will join forces 
like Boko Haram. So, anyway, I wanted to know about that.
    And this is just a side note for Dr. Pham. You said that 
the Nigerians had drones from the Israelis, but the drones 
don't fly, and I just wanted you to finish that. You made that 
comment, but I wanted you to explain about that. Thank you. You 
can start, Dr. Pham.
    Mr. Pham. Thank you, Ranking Member Bass. I will start with 
the last one on the drones. Two years ago on the ramp-up after 
the big wave of attacks on 2011, Nigeria purchased a number of 
drones from Israel, Aerostar drones. They also purchased, and 
the government allocated, reportedly $20 million for a 
maintenance contract. The Israeli firm that was supposed to 
maintain the drones came, set up shop. They never got paid, and 
so after a few months of this, although the money was 
allocated, they closed up shop and went away. They are in 
business to make money. They went away, and then no one picked 
up the slack. The money was allocated, and the good Lord knows 
where the money went. And so 2 years later when the drones are 
needed, not being maintained for 2 years, they don't fly; and 
that is just one anecdote, and one could find others.
    A couple years ago some of my colleagues at the Atlantic 
Council, in the Africa Center, did an analysis of the Nigerian 
fleet and how many of the vessels listed in the battle order 
were in dry dock, and it was a good two-thirds of the fleet. So 
it is a systematic problem. It is not going to be solved 
overnight, and it doesn't reflect on individuals who really 
want to serve their country. But it is a systematic issue. But 
they did have the drones. That is an open source bit of 
information out there that they have the drones, but none of 
them fly.
    Ms. Bass. Thank you. Would other witnesses like to respond 
to some of the other issues I raised?
    Mr. John-Miller. Well, on the issue of the north and what 
should be done, it is not just an issue of underdevelopment in 
poverty, because like I said in my presentation, poverty is all 
about a place. If you go to the Niger Delta and look at the 
landscape, you will agree that the situation is not as grave as 
the Niger Delta. And even when the Niger Delta took up arms, 
when they were told, look enough is enough, they listened. So 
to tell me that poverty is responsible for the situation, that 
is not accurate. It has to be looked at from the lens of 
politics. The belief has been that it is a north-south divide 
when it comes to political offices.
    When a President comes from the north, obviously power 
changes hands when Yar'Adua came, and unfortunately he passed, 
power went to Goodluck Jonathan from the Niger Delta. And the 
belief was that when Jonathan completes his 4 years, it should 
go back to the north. With the belief that Jonathan is about to 
complete his 4 years and go, that is one of the reasons why you 
see the intensification of attacks. So this issue has to be 
addressed. As far as leadership in Nigeria is concerned, it is 
open to all. Not just a matter of one zone producing the elite 
of the country and then for some reason when the other one is 
unable to produce, it now brings up issues, and then there is 
crisis.
    It is also clear that corruption, until we deal with the 
issue of corruption, no matter the human intelligence we have 
and all that, corruption invades every aspect. Look at the case 
of the military. How can you have a functional military when 
the budget of the military is unbelievable, but where are the 
weapons to show that the budget actually was spent on the 
weapons.
    Ms. Bass. And one of the reasons why I asked you the 
question was I was just trying to identify some solutions.
    Mr. John-Miller. Right. So what should be done is this. The 
U.S. Government and the international community needs to sit 
down with the leadership of Nigeria and make it imperative to 
them that this the trend that corruption is having on the 
situation in the country.
    Ms. Bass. So the first question I was asking was about 
Nigerians' reluctance to accept U.S. assistance, so within that 
context, how can we do what you just said?
    Mr. John-Miller. Okay. I read in the papers, and I am also 
going to bring you back to the issue of culture and also 
ethnicity as also part of it. When the U.S. responded that they 
were going to give the Nigerian Government drones and all that, 
everybody welcomed it. I issued a statement. It was just a few 
northern politicians who opposed it, and the reason for 
opposing it is that they see it as a way of empowering 
Jonathan; and if the assistance is accepted, it will certainly 
expose them, who are the sponsors of Boko Haram.
    So in their way, they don't want anything that will give 
opportunity for the security operatives to unveil the real 
sponsors of Boko Haram. That is why no matter what you do, they 
will always criticize that. The best thing that should be done 
is to come out clearly and say as long as this is terrorism, if 
you are implicated, you will be picked up. This is a national 
security issue. It has nothing to do with politics. If you even 
look at the arguments over whether the Chibok girls are 
abducted or not, you will see that it is politics. The Borno 
government is saying that the Federal Government is not doing 
enough. The Federal Government is saying, no, you are not doing 
enough. You will see that there is no unity amongst the levels 
of government; and when it comes to terrorism, the safety of 
lives and property of the citizens comes first.
    Ms. Bass. Okay. Maybe I can hear from the other two 
witnesses.
    Mr. Ogebe. Yes. I was going to say that part of the 
reluctance of Nigeria not accepting foreign assistance is this 
persona, this whole persona of, oh, big brother Africa; you 
know, we are the world. We take care of everyone; no one takes 
care of us. So that clearly was a constraint. But talking to 
some of the military sources in Nigeria for example, regarding 
the FTO, they did hint that there was a reluctance by 
politicians to have finances being tracked and all of that. So 
that may have been why they were not gung ho about FTO 
designation themselves. But I think that Nigeria is now at the 
point where they realize they can't go it alone. And if this is 
any encouragement to you, some of the families we met last week 
told us how they were contributing $70,000. These are poor 
peasant families. But a witch doctor in Cameroon had apparently 
offered to help them bring back their girls, and these poor 
families were trying to raise that money; and here is what they 
told us. They said when we heard in the news that the Americans 
were coming, we decided not to raise that money, and that was 
for me very uplifting. And that was for me very uplifting. And 
I think it illustrates the point that they were retreating back 
into the dark ages because their government had failed. And 
then they saw a glimmer of hope from the world, and that is why 
the majority of them are excited about America's intervention.
    Ms. Bass. Okay. Thank you. Let me go on to Ambassador 
Sanders.
    Ambassador Sanders. Thank you, Ranking Member Bass. You are 
absolutely right in terms of there being a resistance to 
receiving U.S. military training more than anything else, not 
necessarily equipment, but really sort of the training. I saw 
that firsthand when I was on the ground. I spent my first 12 
months or 18 months fighting back their concerns about AFRICOM. 
If you put things back in context, you know, do a little bit of 
history on this issue, AFRICOM had really just been stood up 
for a couple years before, and there was this phobia about 
AFRICOM on the continent. When I landed in Nigeria, the phobia 
on AFRICOM was at an all-time high, not wanting a military 
footprint on the continent, all of those things that we have 
now seen kind of dissipate.
    I have always been a big advocate of AFRICOM in terms of 
its capability for training, the intel it brings to the table 
and everything else. As I said, my team and I worked really 
hard to change that dynamic around in Nigeria. So, yes, you are 
absolutely right. There was that resistance early on, and maybe 
things would have been different. Now I see a huge change in 
that. As you said, the AFRICOM commander was just there. I know 
he went to several locations, not just in the capital, and I 
think that is a real turning point for Nigeria.
    Let me just put one word of caution on the table though. As 
we move forward, now that we have this open door and there is a 
desire for our assistance and our help, I also think we have to 
remember that this is a military that thinks of itself as a 
professional military. It has served in peacekeeping operations 
probably more than any other African country in the world. They 
were the top peacekeepers from the African continent. Their 
force commanders were in Mali. Their force commanders were in 
Darfur. They were in Liberia, for instance. So we have to keep 
that in mind as we go in and try help them and assist them. And 
keep that in mind that we can't also add to the demoralization 
that they may be feeling now. We need to be going in with the 
best foot forward, which I am sure our guys are doing, but I 
just want to put that out there for the record.
    In terms of the poverty issue, definitely that is a feeder 
issue. It is not, I would say, I was always in the camp of 
saying that I didn't see poverty being the driver. I actually 
saw when I was up there, I had a session with religious 
leaders. I had a session with students from Maiduguri 
University my last time up there before I left. And then I did 
an open town hall in downtown Maiduguri, one of the toughest 
environments I have ever had to speak in.
    What I walked away with from that encounter, at least the 
last one, which is very tough, very hostile to the U.S., all of 
those things, I walked away saying this is really more about a 
clash of civilizations, really a different world perception of 
where people, where the fundamentalist groups want to take 
their country. So how do we address that?
    What I saw this last time was a slight change in that 
because Boko Haram has been so brutal, that therecruitment and 
feeder issues have diminished somewhat in their ability to 
attract people to their entity, and that to me is a good sign 
that maybe we as an international community can capitalize on 
by then addressing the sectoral development issues, because the 
attraction for Boko Haram, I think, has been diminished quite 
significantly because of their brutality.
    I was at one session with a group of students at the 
University of Maiduguri, and I will never forget this young 
woman, and she stood up and said, ``Why doesn't the U.S. like 
people of Islamic faith?'' There was that initial sense, I 
thought, from a lot of young people in that part of the region. 
I don't see that as much now because of the brutality of Boko 
Haram.
    So I think we have an opportunity here to capitalize on 
that changing tide that has happened on the ground and really 
come in with some fundamental development tools to address 
education, health care, but more importantly, potable water and 
sanitation I would put at the top of the list, as well as 
really providing an enabling environment for people to live 
their lives in quality and in peace.
    Ms. Bass. Thank you very much.
    Mr. Smith. Gentlelady Jackson Lee from Texas is recognized.
    Ms. Jackson Lee. Let me thank you, Mr. Chairman, for your 
courtesies to a member of the Judiciary Committee and Homeland 
Security Committee and a former member of this committee that 
has had a very strong commitment to the continent, and of 
course to these issues, to our children, and to this crisis 
dealing with Boko Haram.
    Let me thank each of the witnesses and take note of 
Ambassador Sanders for her service to the country and to 
Jubilee for its very in-depth persistent presence in some of 
the more difficult areas.
    So I am going to start with Mr. Pham on the presence or 
non-presence of the African Union and whether or not they can 
pose an effective catalyst for a concerted purposeful action 
against Boko Haram. Do they have the necessary assets to view 
this as an attack on Africa and to be able to be helpful?
    Mr. Pham. Thank you, Congresswoman Jackson Lee, for that 
question. First, let me begin by saying Boko Haram is a threat 
not just to Nigeria but to Africa itself. In that respect, it 
should be and it ought to be a concern for the African Union as 
a whole. That being said, the African Union faces several 
constraints which we have to be realistic about what it can do 
in this particular situation. The first constraint is the 
reluctance still, as Ambassador Sanders just mentioned in her 
response to the ranking member, of Nigeria to its going down, 
but there is still a resistance to outside, if you will, 
interference which the African Union would have to overcome.
    Secondly, the African Union, unfortunately, its 
counterterrorism center is based in Algiers. And part of that 
is it enters into the very murky and complex politics of 
Algeria, its relationship with al-Qaeda in the Islamic Maghreb, 
its relationships with Boko Haram. It gets into a whole bunch 
of weeds. So although the legitimacy of the African Union 
should be brought into play, its condemnation, its convening 
power, in reality, we are facing a situation that requires 
immediate action and resources which by the time the African 
Union got it all together, it is definitely way too late for 
the poor girls from Chibok and for the current effort. So for 
now we should use what we can from the African Union, use its 
convening power, its moral authority, but recognize there are 
very severe institutional dynamics which limit its ability to 
act effectively in this particular situation.
    Ms. Jackson Lee. I don't want to pursue that frailty, but 
that disappoints me greatly. The African Union, as I understand 
it, based still in Ethiopia, is it, has military resources and 
assets as I thought, and I am just shocked that this is not a 
potent enough issue that they cannot be engaged. I am not going 
to ask you to respond, but I am just going to say on the 
record, I am disappointed, and I hope they will have an 
opportunity to meet some of their representatives here. I know 
we have met some of them in Africa, but I am just shocked 
because some of us as Members of Congress have indicated that 
that would be a good partnership to look at it from the African 
perspective.
    There has got to be some military force that has a 
concerted effort, and I heard Ambassador Sanders' comments 
about the resources that Nigeria has; and I also heard your 
comments tragically that this has been going on since the 
1990s, so it has now mushroomed, and it is now at a point where 
it is going to be that much more difficult to contain it, but 
contain it we must. That is my view of it. Contain it we must, 
and we must use not only the resources that we did looking for 
the Malaysian flight, which I truly believe we should as well. 
This is too rich a world, even with the developing nations, but 
I frankly believe that we should use the resources that we are 
using collectively as a world family against al-Qaeda, because 
when you hear the word al-Qaeda, hair stands on the top of 
everyone's head, and every resource that they have is thrown at 
it. In this instance, not only are we missing world support, 
but we are missing world resources.
    Let me ask Mr. Ogebe, thank you for being here representing 
Jubilee. Can you speak to the religious crisis that we are 
facing, and is there any way to part the waters on the 
religious crisis? Because if we are to go to Kano where it is 
sort of the centerpiece, does someone get on a van and come 
with a peace flag, a white flag, and say let's bring everybody 
together? Is that a reality at this point in time? And I might 
just want to put on the record, Mr. Chairman, I am aghast, and 
I am going to get to the two other witnesses, that the loose 
existence of official military garb, uniforms, can be co-opted, 
put on terrorists, and innocent persons in a church literally 
shot down in cold blood. The worst of it is that they were 
receiving these individuals, welcoming them as people who were 
coming to help them, save them, protect them. Emmanuel?
    Mr. Ogebe. Thank you very much, Congresswoman. Yes, the 
religious motivations of Boko Haram are explicit, and clearly 
they have conducted what I consider a pre-genocide on the 
Christian minorities of northern Nigeria. Now, speaking 
particularly with regard to their attacks on religious 
communities, last year they attacked over 60 churches, and in 
the same time frame they attacked about two to three mosques.
    So overwhelmingly their focus is on Christian targets, 
government targets, and occasionally they attack Muslim groups 
that cooperate with the military authorities. Now that said, 
the concern that you make with regard to their access to 
military uniforms is very valid, and this really has created a 
credibility crisis for the genuine security forces because 
there are people showing up in uniforms and carting away girls 
whom they say they are going to protect.
    And that had just happened again last week when they showed 
up in the church and rounded up people and said we are here to 
protect you and massacred scores of people in that village.
    Some of our findings are that at one point, the Nigerian 
chief of staff, in an effort to boost, recruitment of 
northerners into the army, enrolled a lot of people. There are 
mass recruitments. And the records indicate that the night 
before graduation, after all of the training, a lot of these 
people deserted; so they deserted with knowledge and tactics of 
the Nigerian military, and they deserted with uniforms. So when 
you watch some of the videos of the attacks, you can see that 
these are very well-trained people who know the ropes of the 
Nigerian military's tactics.
    Secondly, and this is sad, this goes to the issue of 
corruption again. For many people in the security forces, they 
have to buy some of their own equipment, including their own 
guns and uniforms. And so if you open source uniforms and guns 
and bullets, you will clearly have a problem of proliferation 
falling into bad hands.
    Ms. Jackson Lee. And you may have a problem, if the 
chairman is kind enough to indulge me, I am sorry, if I can 
continue, you may have a proliferation of mismatched uniforms 
not letting the people know what is what. Let me just pose this 
question. I want to get to the other witnesses, because maybe I 
am being idealistic. First of all, would anyone listen to a 
ceasefire? Would anyone listen to the carrying of a white flag 
to go into the region and say, I want to sit down--and I see a 
smile--I want to sit down and at least talk about a ceasefire 
and a cessation of the violence, then begin to talk about the 
issues, because in the testimony that has been given in the 
questionings of the ranking member, there were the issues of 
extreme poverty, but there is also issues that the country 
itself has enormous wealth, but we know that the northern 
region is enormously impoverished, which may have been the 
genesis of a lot of this. Is there any, any hope of some kind 
of effort like that, and who would be the leaders of that 
effort?
    Mr. Ogebe. Well, with regard to the poverty, let me quickly 
polish that off. Boko Haram is killing Christians within their 
community who are as poor as them, or in some cases, even 
poorer because those Christians tend to be denied access to 
government services because they are religious minorities. The 
Christians could very well be terrorists as well if poverty was 
the simple reason or rationale for this, and they are not doing 
that.
    With regard to the idea of the ceasefire, Boko Haram does 
not respect humanitarian corridors or any of the conventions 
that civilized people respect in combat, for example, allowing 
medics to come in, allowing relief to come in. They have 
actually gone out of their way to kill medical workers, so they 
may not be open to moral suasion from any source. That said, at 
this point because of the world headlines, the global spotlight 
on them, they may be open to approach.
    I will say that we have contacts who have contacts who 
communicate with Boko Haram; and I tried to find out while I 
was out there last week whether they were open to talking, and 
apparently that channel has been silent for a while. I think, 
Congresswoman, if you wanted to lead that effort, we would be 
solidly behind you; but I can't think of anyone who would lead 
the charge as far as trying to broker a ceasefire. But 
certainly with the media headlights, which they clearly like--
they are media savvy--there may be a window to actually have a 
dialogue with them.
    Ms. Jackson Lee. Thank you. So on this side of the table, 
let me now call for a ceasefire, and let me join with my 
colleagues here, Chairman Smith, and the members of this very 
esteemed subcommittee, and therefore, say that we want a 
ceasefire. We want to save lives. I know there are many experts 
at this table, but if they can hear the sound of our voices, we 
have just asked for a ceasefire, and I am not taking this 
lightly. This is baffling and outrageous, but I do believe that 
there has to be some moment where we can find a way to save 
these girls.
    May I ask the last two witnesses this question, and 
Ambassador Sanders, you in particular have just come back, for 
those of us who may be headed in that direction, what should we 
be looking for? What should we see? What should we ask? And to 
Mr. John-Miller, we thank you for your service. Again, I am 
going to ask you the question about any hope for a ceasefire 
from a humanitarian perspective that then gives us the 
opportunity to bring these girls back. We are hashtagging it. 
We are press-conferencing it. These girls are still scattered, 
still away from their families, and still frightened; and so I 
would ask you that. I am going to go to Ambassador Sanders 
first, what we should be focused on.
    Ambassador Sanders. Thank you, Congresswoman. I wanted to 
just briefly say something on the AU, and I will go right to 
your questions. I just wanted to let you know that the ECOWAS 
countries have trained together before and have worked together 
before in conflicts, so maybe that is where the additional 
troop support could come from as opposed to the broader AU, and 
maybe it could be under a U.N.-AU mandate with Nigerian troops 
in the lead but having additional support from troops who have 
been involved in asymmetrical warfare. So that is a 
possibility. They have had a lot of exercises together as 
ECOWAS, and that is a possibility.
    In terms of who you should meet, certainly you need to meet 
people in the security services. That would include the 
military, the police, and their equivalent of the CIA 
basically. I think you will get a sense from them of where they 
think their challenges are, and you can hear what they say, and 
then you can hear what our trainers are saying or those that 
are there to help on the U.S. assistance packages, and see 
where those things meet. And maybe there are still gaps, but I 
know that our team there is doing a top notch job. They always 
have. But I do think that those are key.
    Then I would also include the Justice Ministry in that as 
well because you want to make sure that everything possible on 
the justice and non-impunity side is being done as much as 
possible, so I would add that to it.
    I would lastly want to just say both Muslims and Christians 
have been killed in this conflict; and I would like to see us 
always talk about this conflict in that context. If you go back 
to what Shekau said a couple of years ago about trying to have 
an Islamic caliphate in northern Nigeria and really starting in 
the region where the state of emergency is, if you look at one 
of those states in particular, Adamawa used to be about 50 
percent Muslim and 50 percent Christian. The idea is to make 
Christians so fearful that they move out of the region.
    And I think that we can't add our voice to that kind of 
dynamic, so we need to be very careful about making sure that 
we are talking about this as both Christians and Muslims, 
particularly moderate Muslims, being under siege there. But 
their goal to have an Islamic caliphate means that they don't 
want anybody who is not Muslim in the north, and that includes 
moderate Muslims as well.
    So I think we just have to be really careful that when we 
talk about the devastation and the killing and the abuses and 
the brutality, everyone who is not part of Boko Haram is 
subject to that.
    Ms. Jackson Lee. What I would say is, I asked Mr. John-
Miller to finish my questioning, what I would say is that the 
idea behind the ceasefire, however it may be expressed here at 
the table, is really--was really to focus on the idea of the 
populations, the Christian and Muslim populations, who equally 
have been victimized, to actually see if they could be the 
fathers of this ongoing crisis. But what I would say is that is 
a very good point. It is a point that I pursued and will be 
pursuing as well. Yes?
    Ambassador Sanders. I had one more thing to add on the 
ceasefire issue, and unfortunately, I am going to end up in the 
pessimist column on this. Because I said earlier that I think 
this is about a clash of civilization in terms of how Boko 
Haram sees the world, I do not see them agreeing to a 
ceasefire; and I think that we have to keep that in mind as we 
look at strategic planning and how to address this conflict. I 
said earlier that we need to eliminate the current playbooks 
here and come up with a new playbook to address this threat. 
But if you are talking about and you are hearing what Shekau 
actually is saying and those that are following him are saying, 
these are not people that you are going to be able to reason 
with for a ceasefire; and I hate to say that, but I think we 
need to keep that in mind.
    Certainly we can make the effort and the approaches because 
I agree with you, we have got to do everything possible; but I 
also think we have to be realistic and also look at the 
possibilities they are not going to respond to any overtures of 
a ceasefire.
    Ms. Jackson Lee. I am so grateful that we have this hearing 
to hear these kinds of very pessimistic facts, but to be 
realistic in how we approach this. And that is my point, that 
we may be in an arena that is more unique than we have ever 
had. And we have moved heaven and earth when we hear the word 
al-Qaeda and its subsets; we now have maybe a subset that is 
growing exponentially, and my fear is that it moves throughout 
the continent where we are trying to work against conflicts. So 
Mr. John-Miller, if I could finish with you on the questioning.
    And might I do this, Mr. Chairman, and let you know that we 
have some young people from the YES Prep North Forest area ECS 
Region 4 and CloseUp who are in this room, and I hope they are 
understanding that our hearing is about saving lives and having 
tolerance of different groups; so I welcome them here.
    Mr. John-Miller, your take on this whole epidemic of 
violence, and also, why don't I let you focus on the 
possibility, or not the possibility, but the getting these 
girls back.
    Mr. John-Miller. Well, my solution is this. I am an 
optimist, and I strongly believe that every effort put in that 
direction is wanted. When the U.S. decided to help Nigeria 
publicly, I do realize that a lot of northerners welcomed the 
idea, although a few of them really rejected it. But when 
someone like President Obasanjo stepped in, we began to see 
some changes because a lot of northern leaders began to say 
they wanted ceasefire. They want to talk to Shekau and all 
that. So I think that one thing we can do is encourage 
President Olusegun Obasanjo to go ahead with what he is doing. 
I think one of the aspects that complicates the matter is the 
fact that from information reaching us, he is not all that good 
with the current President; but if they can keep their personal 
differences aside and look at this issue as a national issue, I 
am sure that Obasanjo is going to be able to do something about 
it, particularly when it comes to bringing back the girls.
    I also strongly believe that someone like the Reverend 
Jessie Jackson has earned the trust and respect of northerners 
in Nigeria, and he interacts with a lot of them. And the 
leaders in the northern part of the country play a big role. If 
these individuals are made to understand the reality of the 
fact that what is going on is going to drive away the 
development, is going to cause a lot of chaos in the country, 
certainly they would be willing to work with individuals to 
bring an end to it.
    So I would recommend strongly that if it is possible people 
like Obasanjo and the Reverend Jackson should be saddled with 
that responsibility to at least help to look into the issue. If 
some people might argue that it is like giving Shekau more 
authority, that he is an individual, but the fact remains that 
like I stated earlier, if adequate diplomacy is not used, he 
will not release those girls, and any attempt to use force, he 
will kill them.
    So I would strongly suggest that people like Obasanjo and 
the Reverend Jackson should be looked into to possibly initiate 
that. I have also met with them, discussed it with them; and 
they are very optimistic that if given the support and mandate, 
they can be able to really make a dent or make a headway, so I 
want us to look at that.
    Ms. Jackson Lee. Mr. Chairman, as I close, let me thank you 
very much and thank the witnesses. I know that there is more 
that I could have garnered from this. I do want to say this on 
the record. I am pleased of the efforts that the United States 
and President Obama have taken, and I know they are prepared to 
do more particularly with the intelligence effort, the 
strategic persons that were on the ground, the ability to use 
the intelligence gathered to help with the finding of the 
girls.
    I gleaned from your statements, Mr. John-Miller, that 
emissaries--we have done it before, Mr. Chairman--so I am going 
to put everything on the table that we raise with Nigeria, we 
raise with the United States, we raise with the United Nations, 
just as there was an envoy to Darfur, there is one to South 
Sudan, and we know that those issues are still boiling, that we 
may need to do the envoy in this instance. And I also think, 
Ambassador, the ECOWAS is a great team. They have been 
successful in the past maybe with the embrace, as you said, of 
the African Union and the United Nations.
    I am throwing my hands up, Mr. Chairman, but I am not 
giving up. I am frankly believing that we have to keep this on 
a front burner to save lives, and I would ask, if they can hear 
my voice, for the people of Nigeria in the northern area to 
know that they are not abandoned and that there are those of us 
that feel the pain and certainly can't equal their pain of loss 
of life, children, husbands, wives, and other family members or 
the loss of these girls; but we feel the pain, and I am just 
committed to trying to help as much as I can.
    Mr. Chairman, thank you for your leadership, and I thank 
Congresswoman Bass for her great leadership on this issue and 
your kindness for allowing me this time on the committee. I 
yield back.
    Mr. Smith. I thank my good friend from Texas for being a 
vital part of this hearing and look forward to hearing of her 
upcoming travel. Thank you so much.
    Let me just conclude with a few final questions. I know you 
have been very, very patient with your time, and the 
subcommittee deeply appreciates it.
    Ambassador Sanders, again, I think it is worth reiterating. 
You testified ominously that Nigeria is at the beginning of a 
long war or conflict, and that they have to realize this; it is 
no longer a localized conflict or insurgency. There is no easy 
fix or response, and I think that sobering analysis needs to be 
fully understood and appreciated by everyone.
    You also talked about that there needs to be regrouping, 
reapproach and readdress in order to get off their heels, that 
is, the Nigerian security forces who are on defense and go on 
aggressive offense. And I think we need to put exclamation 
points behind that, and that is why that training more rather 
than less and an acceptance by the Nigerians that there is a 
special skill-set that needs to be imparted that has been 
learned the hard way through our military; and, of course, 
there are others involved in this as well. So thank you for, 
you know, bringing that sobering analysis to the committee.
    You have also pointed out about the trauma issue. And, 
again, Mr. Ogebe brought several traumatized victims, moms, 
dads, that young girl who is one of the lucky ones who escaped 
Chibok. And noting parenthetically, and I think everybody knows 
this, the Boko Haram troops were wearing uniforms. They looked 
like they were the military. That is why the young girls in a 
very orderly fashion got into the vehicles. They thought it was 
the military. It was not, of course. They were terrorists. But 
the trauma counseling that you have called for I think is 
extraordinarily important.
    Years ago, I wrote the Torture Victims Relief Act which 
deals with those who have suffered trauma from torture. And I 
did serve as chairman of the Veterans Affairs Committee for a 
number of years, and I served on the committee for a quarter of 
a century. PTSD is such a significant mental health issue, and 
it would seem to me that these individual girls, those who have 
been abducted, all those who have been involved who have been 
victimized, there needs to be much more done.
    Mr. Ogebe, you talked about the victims compensation fund, 
and I do hope that President Goodluck Jonathan is listening and 
his staff. Put those resources toward the families; get them 
the kind of help, particularly psychologically, that they are 
so much in need of. Otherwise that trauma imbeds. It goes 
deeper. It acts out in many, many ways. We learned that 
especially with our Vietnam veterans when 10 years, 15 years 
down the line, huge problems manifested; and people who weren't 
aware of PTSD didn't have a clue, and that includes wives and 
husbands and families.
    I like your idea, Madam Ambassador, about President 
Jonathan meeting with the families. Invite them to the villa. 
Have a meeting with them and put his arms around them and say 
we care for you because you know with the election coming up, 
one of my takeaways from 4 days on the ground last week was 
that the election is serving as an acceleration phase for more 
terrorism. No ebb tide. They will get worse, not better. And as 
you pointed, several of you pointed out, the ability to bring 
bombs into Abuja itself and to breach the security perimeter is 
very real as witnessed by the attack in the bus station just 
very recently.
    Let me also point out, and I think it is worth bearing, 
when Greg Simpkins and I were there last September, we did meet 
with folks involved with President Jonathan's Presidential 
Committee on Dialogue and Peaceful Resolution which was 
reaching out to Boko Haram, but it was a bridge to nowhere. 
Maybe hope springs eternal. There might be something, but I 
would share your thoughts, Madam Ambassador. We are dealing 
with Joseph Kony. We are dealing with Charles Taylor, Slobodan 
Milosevic. We are dealing with bloodthirsty people who have 
been enabled and empowered to do more rather than less killing.
    Ms. Jackson Lee. Would the gentleman yield for just one 
moment?
    Mr. Smith. Sure.
    Ms. Jackson Lee. I just want to say that you have captured 
just the essence of the vitality of this hearing, and I want to 
add to what you are saying about the President. No one person 
can single handedly fight Boko Haram, but there are things that 
can be done. To my knowledge, there is no victims fund 
established, relief fund, that has been set up by the Nigerian 
Government for the victims who have lost people. I don't know 
what the status of these girls' families, but if they are 
mourning and are at a central point, just as the families of 
the Malaysian flight. They have left their homes. They are at a 
point, they are in need not only of the warm expression of 
concern; so I would like to make sure I put on the record that 
I hope, Mr. Chairman, I hope we can write a joint letter with 
your committee that we want a victims relief fund set up for 
this crisis that is ongoing by the Nigerian Government, and I 
think it is key that we do so.
    Mr. Smith. Well, I have raised it. Mr. Ogebe has raised it 
repeatedly. I do know the personnel from the Nigerian Embassy 
are here. The Ambassador was here earlier. It seems to me this 
is something that could be done very easily because those 
families are left to fend for themselves, and as you mentioned, 
Madam Ambassador, the possibility, hopefully not the 
probability, but the possibility of being reabducted remains 
very real. Boko Haram is capable; and so, please, if you could 
respond.
    Ambassador Sanders. I just wanted to add one more thing on 
the trauma and grief. I had it briefly in my statement, but I 
feel like I need to reiterate it. The PTSD also for the 
military, and I say that because I heard that a lot from some 
of the rank and file service members that I saw. Poor troop 
rotation in the area is one reason. So when we are looking at 
trauma and grief counseling, you know, hopefully in our 
package, we are also looking at that for the Nigerian military 
because I am hearing more and more about PTSD for them as well 
that have served in the northeast. So I just wanted to add that 
to the mix.
    Mr. Smith. And if I could add and, again, having served on 
Veterans Affairs Committee for a quarter of a century, the 
Veterans Administration, notwithstanding the problems that are 
facing it now in terms of waiting lists, has literally written 
the book on how to deal with PTSD; so perhaps our own VA might 
be of some assistance in dealing with those thorny issues of 
deep psychological injury that the military as well as victims 
suffer. Would anyone like to say anything before we conclude? 
Professor Pham?
    Mr. Pham. I just want to make two brief observations, Mr. 
Chairman. One is I agree with Ambassador Sanders that 
realistically, Boko Haram has not shown itself a respecter of 
persons. Even the traditional authorities are well respected in 
Nigeria. They have threatened the Sultan in Sokoto. They have 
attacked the brother of the Shehu of Borno. These are 
traditional figures that enjoy great moral suasion. I hope for 
the best but I join Ambassador Sanders about not being 
particularly sanguine about the prospects.
    The other point I want to make is that Congresswoman 
Jackson Lee made an excellent point. The Pan-African dimension 
of tactics. A lot of the tactics that we have just discussed in 
the last few minutes are African tactics they have learned from 
other places. AQIM in its previous incarnation as the GSPC, and 
even before that as the GIA, the idea of wearing uniforms and 
using the uniform of the military is something they perfected 
to an art, and they still use in Algeria, and that Boko Haram 
has picked up. The idea of submitting, as Mr. Ogebe brought up, 
submitting to training as a way of outsourcing, if you will, in 
a very perverse way the training of your own fighters. We saw 
that year in and year out in Somalia when clan and even al-
Shabaab militia would enroll with the former transitional 
Federal Government, receive the training, take the training 
uniform and weapons, and then move en masse to firing those 
weapons back on the people that train them.
    Again, they have had these connections. They are picking 
these things up. These ideas move very rapidly across 
frontiers, and this is why Boko Haram is even now more of a 
danger than it has been, because the means of communication 
that facilitate our getting information also facilitate them 
getting information and exchanging, if you will, best 
practices.
    Ambassador Sanders. One last thing, and it is really on the 
heels of what Dr. Pham just said. It is a perspective I have 
coming out of the diplomatic corps in terms of how we share 
information, and maybe there are things that we need to pay 
attention to. These groups do learn from each other. When I 
looked at the Westgate situation, I thought that they had 
learned from the Boston Marathon bombers because they brought 
in a change of clothes so that some of them could actually 
leave the mall with civilian clothes on or change of clothes or 
harder to identify.
    I think what Boko Haram has learned from Westgate is the 
separation of the hostages and moving them around. I think that 
we have to pay attention to, you know, what we are saying out 
there and what we are hearing out there so that we don't add to 
the arsenal of things that they use to further impose violence 
and brutality on civilian populations.
    So I would add that I agree wholeheartedly with my 
colleagues on the panel and everything that they have said, but 
particularly on this issue, I think we need to pay attention to 
the fact that they are paying attention to what we say and what 
we do and what we share; and they capitalize on that, and then 
they use it in the brutal way that we have seen here in the 
case of Nigeria.
    Mr. Smith. Thank you. Emmanuel?
    Mr. Ogebe. Yes, Mr. Chairman. I agree with what Ambassador 
Sanders has said. There is a lot more that one would have 
wanted to share, but I have put it in my paper so that we don't 
provide fodder to the terrorists who are clearly paying a lot 
of attention to all that is being said.
    I do want to quickly mention two things: The first is with 
regard to the fact that last week we met with a Muslim father 
who has two daughters who are missing, and a Christian father 
who has one daughter. They traveled 2 days together to come to 
Abuja to meet with us. And there is something about the pain 
and the travesty of this experience that is making these people 
bond together; and as the Ambassador said earlier, hopefully we 
can seize the moment and help unite these communities so that 
they can turn on the terrorists that have devastated their 
lives.
    And so part of what we as non-profits plan to do is to 
continue to encourage the young girls with scholarships and so 
on and so forth, and these are some of the initiatives that we 
are working on stealthily because of the sensitivity of the 
subject matter.
    The last thing I want to say is, I want to use this 
opportunity, and Mr. Chairman, you will forgive me for my abuse 
here, but I want to pay tribute to my mother who was a northern 
Nigerian schoolgirl who cried in school when her teacher said 
that girls don't read science. They only read arts. And she 
insisted that she wanted to be a doctor, and they finally put 
her in the boys school because boys were taught science; and 
she became the first female doctor from northern Nigeria. And I 
want to pay tribute to other young girls today, including those 
in captivity, who want to have that same opportunity that my 
mom had; and I thank you for the opportunity to say that today.
    Mr. Smith. Thank you so very much for your testimonies, 
very, very incisive. Hopefully we can take this and obviously 
work with the administration, work with other Members of 
Congress and the Senate to do far more than we have done. I do 
want to thank Embassy Abuja, including our DCM, and the two 
human rights officers, Helena and Michelle. I will go with just 
first names today, and Maria for their wonderful work, their 
professionalism. They were very helpful during my 4 days on the 
ground, and we will continue working with them; and without 
objection, testimony from the United States Commission on 
International Religious Freedom, Mr. Jasser, will be made a 
part of the record. And again, I thank you for your testimony, 
and the hearing is adjourned.

    [Whereupon, at 5:03 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              
   Material submitted for the record by Mr. Emmanuel Ogebe, manager, 
             Justice for Jos Project, Jubilee Campaign USA
             
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>
</pre></body></html>
